<html>
<title> - COUNTERTERRORISM EFFORTS TO COMBAT A CHEMICAL, BIOLOGICAL, RADIOLOGICAL, AND NUCLEAR (CBRN) ATTACK ON THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      COUNTERTERRORISM EFFORTS TO COMBAT A CHEMICAL, BIOLOGICAL, 
        RADIOLOGICAL, AND NUCLEAR (CBRN) ATTACK ON THE HOMELAND

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2013

                               __________

                           Serial No. 113-12

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

82-586 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Vacancy
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Paul C. Broun, Georgia               Brian Higgins, New York
Patrick Meehan, Pennsylvania         Loretta Sanchez, California
Jason Chaffetz, Utah                 William R. Keating, Massachusetts
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry Ann Watkins, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
                  Hope Goins, Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Richard Daddario, Deputy Commissioner for Counterterrorism, 
  New York City Police Department:
  Oral Statement.................................................     9
  Prepared Statement.............................................    12
Dr. Huban Gowadia, Acting Director, Domestic Nuclear Detection 
  Office, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................    15
Mr. Scott McAllister, Deputy Under Secretary, State and Local 
  Program Officer, Office of Intelligence and Analysis, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    20
  Joint Prepared Statement.......................................    15
Dr. Leonard A. Cole, Director, Program on Terror Medicine and 
  Security, University of Medicine and Dentistry of New Jersey:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

 
      COUNTERTERRORISM EFFORTS TO COMBAT A CHEMICAL, BIOLOGICAL, 
        RADIOLOGICAL, AND NUCLEAR (CBRN) ATTACK ON THE HOMELAND

                              ----------                              


                        Thursday, April 25, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Higgins, and Keating.
    Also present: Representative Green.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony 
examining a threat of weapons of mass destruction attacks on 
the homeland and to review Federal, State, and local 
governments' capabilities to detect and respond to such 
attacks.
    I now recognize myself for an opening statement.
    Let me just say at the outset that this hearing was 
scheduled a while back. It has been postponed at least once, 
and I thank the witnesses today for their forbearance and being 
willing to work with us on scheduling a new date.
    Obviously at the time this was originally scheduled we did 
not know that the attack in Boston was going to occur, and to 
me, it makes today's hearing all the more meaningful even 
though it is not focused on that in particular. I am sure that 
the Chairman of the committee is going to schedule inquiries 
into the Boston matter. But I think today certainly can relate 
to Boston and it shows the various elements and the scope of 
the type of attacks that we have to constantly be on our guard 
against when we are dealing with international jihad.
    So with that, I want to welcome our distinguished witnesses 
for this hearing.
    It really is an appropriate hearing to kick off the 
subcommittee's activity for the 113th Congress. I am looking 
forward to working with Members of the subcommittee, especially 
the Ranking Member, Mr. Higgins, who is a colleague from New 
York and a friend, to examine current and emerging threats, 
ensure that all necessary efforts are made to detect and 
respond to a terrorist attack, and conduct oversight over 
intelligence and information sharing at all levels of 
government.
    I can speak for myself, and I am certain for the Ranking 
Member as well, this subcommittee will be run in a bipartisan 
way with, again, working to the extent we possibly can to 
address this issue, which--the issue of terrorism, which 
affects us whether we are Democrat or Republican, north or 
south, but particularly in New York, where we had a situation 
last week with the announcement of the plot by the Royal 
Canadian Mounted Police, which would have affected residents 
from New York going through Buffalo, of course, the Canadian 
border, where Mr. Higgins represents, and a terrible loss of 
human life.
    So we are all in this together, and that, I think, is going 
to be the premise that guides our subcommittee as we go 
forward.
    Now, last week the attacks in Boston, which killed three 
people and wounded more than 80, were, as I said, a tragic 
reminder of the continued terrorist threat facing the homeland. 
Hopefully this will be a wake-up call to all Americans, 
particularly to Members of Congress, who somehow feel that the 
war on terrorism is over and that homeland security funding is 
a target to be cut when, in fact, to me, the threat is as great 
as it ever was; a different dimension to the threat, but in 
many ways even more dangerous than before September 11.
    The unfortunate reality is that by using on-line 
instructions from Inspire magazine terrorists were able to 
construct lethal improvised explosive devices, and that, also, 
does not even reference any training they may have had 
overseas.
    While this hearing is not focused on the Boston attack 
specifically, we have to ask what the possibility is for 
terrorists to acquire chemical, biological, radiological, or 
nuclear materials and then use those combined with an 
improvised explosive device, an IED. We have to ask what our 
intelligence and response capabilities look like in that event. 
When you think of the carnage that was caused and how in many 
ways a country, and certainly a city, came to a halt for 4 days 
just with two devices--two IEDs left behind--we can just 
imagine the consequences if that had been a radiological or 
nuclear or dirty bomb attack.
    Now, we don't have to look far to see that the WMD threat 
is real. We saw that Korea has certainly made threats against 
the United States; we had Kim Jong-un posing with a chart 
entitled ``U.S. Mainland Strike Targeting Major American 
Cities.''
    Iran's Ahmadinejad threatens that a world without America 
is both desirable and achievable. While their missiles cannot 
yet reach our shores, and while Tehran works vigorously to 
produce nuclear arms, it still hasn't succeeded. But we have to 
assume the day will come when they will.
    Ten years ago al-Qaeda sought and received an Islamic 
religious ruling authorizing the use of weapons of mass 
destruction against infidels. Al-Qaeda has sought nuclear 
weapons for 20 years. In the past 6 years terrorists have 
launched several attacks on facilities housing Pakistan's 
several dozen nuclear weapons.
    A nuclear event in any U.S. city would be a catastrophe. 
For instance, it is estimated that a ground burst of a 150-
kiloton device at the base of the Empire State Building in an 
unevacuated Manhattan at noon on a workday in good weather 
would ultimately kill or wound more than 1.5 million innocent 
people.
    That is why President Obama stated that the single biggest 
threat to U.S. security, both short-term, medium-term, and 
long-term, would be the possibility of a terrorist organization 
obtaining a nuclear weapon. Al-Qaeda is ``trying to secure a 
nuclear weapon--a weapon of mass destruction that they have no 
compunction at using,'' and that is a quote from President 
Obama.
    An attack using a less sophisticated radiological 
dispersion device, often called a dirty bomb, would be less 
deadly than a nuclear blast but it still would involve the loss 
of human life and would have incalculable economic, 
environmental, and psychological impacts on our Nation.
    Our first line of defense against rogue states' or terror 
groups' weapons of mass destruction are the 
counterproliferation and counterterrorism efforts of our 
intelligence community and Federal law enforcement. Our next 
line of defense is our Nation's military defense forces and 
nuclear deterrent.
    Our last line of defense is with us here today--the front 
line defenders responsible for intercepting a nuclear bomb. 
They are the Department of Homeland Security's Domestic Nuclear 
Detection Office and State and local police, represented, I am 
proud to say, today by Commissioner Daddario of the New York 
City Police Department, which has 1,000 police officers working 
day in and day out on counterterrorism.
    The NYPD participates in the DHS's vital Securing the 
Cities program, which has provided 8,500 radiological 
detectors, trained 13,000 police officers, and conducted 100 
drills. Last year DHS wisely expanded Security the Cities to 
another at-risk city, Los Angeles.
    Commissioner Daddario, I should say, the program has come a 
long way, though. I remember the first time, when it was first 
being rolled out and they had it--they were testing it on the 
border between Nassau County and Queens County on Sunrise 
Highway, and the first guy that was stopped was some poor guy 
coming back from a stress test and he got pulled over and he 
said--I see you nodding--he said, ``The doctor said my heart is 
in good shape but I am going to have a heart attack right 
now.'' So many lights were going off, helicopters were moving, 
it was--we thought we had our first nuclear terrorist but 
instead it was just some poor guy who was filled with 
radiation.
    But in any event, it has come a long way since then and is 
really, I think, absolutely essential to the security of the 
city because, similar to what happened in London and Madrid, it 
is believed that the next threat against a major city will be 
launched from the suburbs. As bad as that would be, if we have 
a dirty bomb it would be that much worse. That is why I think 
Secure the Cities program, which has worked so well in New 
York, but I think it is transferable to virtually any other 
urban area in the country.
    At today's hearing we will examine the threat of a 
chemical, biological, nuclear, or radiological attack on the 
homeland; review Federal, State, and local governments detect 
and respond to such attacks; and identify opportunities for 
information-sharing--again, always with the backdrop of Boston, 
which again, if anything positive comes from it it is a 
reminder of how real the threat is and how whatever we discuss, 
again, thinking how bad that was, how much worse it could have 
been if it had been any of these nuclear or radiological 
devices.
    In closing, I want to commend the Obama administration for 
its firm line against North Korea. Republican or Democrat, we 
all stand shoulder to shoulder with our South Korean and 
Japanese allies against any aggression. I also commend the 
administration for its continuation and expansion of Securing 
the Cities program.
    I now look forward to the testimony of the witnesses, and--
but first I want to recognize, again, a good friend, an 
outstanding Member of Congress from upstate New York, which 
sometimes we refer to as Southern Canada, gentleman from New 
York and Ranking Member, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing, and look forward to working with you toward our mutual 
objectives of protecting the homeland and strengthening 
America's influence abroad.
    I would also like to thank the witnesses for their 
testimony.
    Let me also publicly thank the FBI, Joint Terrorism Task 
Force, the Department of Homeland Security, and State and local 
officials for their efforts in apprehending a suspect in the 
Boston marathon bombing. Their efforts exemplify the type of 
collaboration that we envision when State, local, and Federal 
agencies work effectively together.
    On Monday, as the Chairman has mentioned, the Royal 
Canadian Mounted Police announced that they, along with the FBI 
and Department of Homeland Security, disrupted a terrorist plot 
to attack a commuter train that runs from Toronto through the 
Northern Border at Niagara Falls into New York City. The 
individuals charged allegedly received support from al-Qaeda in 
Iran.
    Now, some were surprised that al-Qaeda had a presence in 
Iran. Al-Qaeda is a Sunni organization in a Shia-majority 
country, but we should remember that when the Taliban was 
defeated in 2001 in Afghanistan, many of bin Laden's family 
members and top lieutenants had self-exiled to Iran.
    I commend the work of the Canadian and the United States 
intelligence and law enforcement agencies for successfully 
thwarting this attack on our Nation. I believe it is the duty 
of this subcommittee to examine threats from al-Qaeda in Iran, 
and I have talked to the Chairman about the possibility of 
holding a hearing on the al-Qaeda presence in Iran and any 
threat it poses to the United States.
    According to Secretary of State Kerry, Iran is moving 
closer and closer to processing a nuclear weapon. Nuclear 
proliferation in Iran, Syria, and North Korea should encourage 
us that we need to be prepared for an attack here in the United 
States.
    We have been fortunate that a chemical, biological, or 
radiological, or nuclear attack has never come to fruition here 
in our country. In 2008 the Commission on the Prevention of 
Weapons of Mass Destruction Proliferation and Terrorism 
produced a report entitled ``World at Risk.'' According to that 
report, the commission told us that they believed a terrorist 
attack would occur somewhere in the world by 2013 and that it 
is more likely to be an act of biological terrorism.
    It is now 2013 and we recognize the possibility of a 
chemical, biological, radiological, or nuclear attack from both 
foreign and domestic actors. However, recognizing an attack 
does not equal being prepared for one. The Weapons of Mass 
Destruction Commission concluded that the best strategy for 
biodefense was improving the ability to respond.
    Last Congress this committee held a hearing on the threat 
from chemical, biological, radiological, and nuclear weapons. 
During those hearings our witness, Dr. Leonard Cole, who is 
with us today, stated that the response plans and exercises 
fall short of optimal levels, and planning that realistically 
incorporates Federal, State, local, and private-sector 
resources into a unified WMD response is largely absent.
    In order to successfully prepare for this kind of attack we 
must alter policy and ensure that first responders have the 
resources that are necessary to be effective. The First 
Responder Grant programs are important to preparedness and 
should be provided at adequate levels.
    As we saw in Boston, the actions of first responders were 
critical. Their actions were necessary in preventing a 
catastrophic loss of life in the wake of a chemical, 
biological, radiological, or nuclear attack.
    I understand that today's testimony will highlight a 
Department of Homeland Security program that is designed to 
prevent these kinds of attacks in two cities that are facing 
the highest risks. Those cities are New York City and Los 
Angeles.
    I know that these cities are vulnerable and depend on first 
responders. I particularly know that New York City does because 
first responders from the Buffalo and Niagara region have 
assisted them in the wake of the horrific 9/11 attacks and the 
devastation from Hurricane Sandy.
    We know that these attacks could happen anywhere, and 
knowing this, there should be an incentive to properly fund 
first responders consistently answering the call when our 
Nation is in need.
    Along with readiness, information sharing among Federal, 
State, and local officials must be strong when it comes to 
intelligence involving potential chemical, biological, 
radiological, or nuclear attacks. In this Congress I am an 
original co-sponsor of H.R. 1542, which strengthens 
intelligence and information sharing about weapons of mass 
destruction. It is my hope that this bipartisan legislation 
will be voted on favorably by this committee.
    This legislation is a step in the right direction, but 
there is still much work to be done. First responders in all 
areas of risk need to be fully capable and equipped to handle 
an attack.
    This means that full funding of State and local grant 
programs by the Federal Government, and this includes the Urban 
Area Security Initiative. I will be introducing--or 
reintroducing--legislation to once again provide funding 
opportunities for communities like Buffalo and Niagara Falls 
under this program, which were senselessly cut from funding.
    Additionally, coordination needs to be improved among all 
officials at the Federal, State, and local level to have a 
response that is expedient, efficient, and effective.
    I look forward to the witness testimony today, and I thank 
you for being here, again.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             April 25, 2013
    I would like to thank the Chairman for holding the first 
subcommittee hearing this Congress. I look forward to working with him 
in a bipartisan manner. Let me also publically thank the FBI, Joint 
Terrorism Task Force, Department of Homeland Security, and State and 
local officials for their efforts in apprehending a suspect in the 
Boston Marathon bombing. Their efforts exemplified the type of 
collaboration that we envision when State, local, and Federal agencies 
work together.
    On Monday, the Royal Canadian Mounted Police announced that they, 
along with the FBI and DHS, disrupted a terrorist plot to attack a 
commuter train that runs from Toronto through the Northern Border at 
Niagara Falls into New York City. The individuals charged allegedly 
received support from al-Qaeda in Iran. I commend the work of Canadian 
and United States intelligence and law enforcement agencies for 
successful efforts to thwart an attack on our nations.
    I believe it is the duty of this subcommittee to examine threats 
from al-Qaeda in Iran, and I hope the Chairman will hold a hearing on 
al-Qaeda in Iran and any threats it poses to the United States. 
According to Secretary of State Kerry, Iran is moving closer and closer 
to possessing a nuclear weapon. Nuclear proliferation in Iran, Syria, 
and North Korea should encourage us that we need to be prepared for an 
attack here in the United States.
    We have been fortunate that a chemical, biological, radiological, 
or nuclear attack has never come to fruition in the United States. In 
2008, the Commission on the Prevention of WMD Proliferation and 
Terrorism produced a report entitled World at Risk. According to that 
report, the Commission told us that they believed a terrorist attack 
would occur somewhere in the world by 2013, and that it was more than 
likely to be an act of biological terrorism.
    It is now 2013, and we recognize the possibility of a chemical, 
biological, radiological, or nuclear attack from both foreign and 
domestic actors. However, recognizing an attack does not equal being 
prepared for one. The WMD Commission concluded that the best strategy 
for biodefense was improving the ability to respond. Last Congress, 
this committee held hearings on the threat from chemical, biological, 
radiological, and nuclear weapons.
    During those hearings, our witness, Dr. Leonard Cole, who will also 
testify today, stated that response plans and exercises fall short of 
optimal levels. And planning that realistically incorporates Federal, 
State, local, and private-sector resources into a unified WMD response 
is largely absent.
    In order to successfully be prepared for a chemical, biological, 
radiological, or nuclear attack we must alter policy and ensure that 
first responders have the resources that are necessary to be effective. 
The first responder grant programs are important to preparedness and 
should be provided at adequate levels.
    As we saw in Boston, the actions of first responders are critical. 
The actions of first responders are necessary in preventing a 
catastrophic loss in the wake of a chemical, biological, radiological, 
or nuclear attack.
    I understand that today's testimony will highlight a Department of 
Homeland Security program that is designed to prevent radiological and 
nuclear attacks in two cities that are facing the highest risk. This 
program is in New York City and Los Angeles. I know that these cities 
are vulnerable and depend on first responders. I particularly know that 
New York City does because first responders from the Buffalo/Niagara 
region have assisted them in the wake of the horrific 9/11 attacks and 
the devastation from Hurricane Sandy.
    We know that chemical, biological, radiological, or nuclear attacks 
could happen anywhere. Knowing this, there should be an incentive to 
properly fund first responders who consistently answer the call in the 
time of anyone's need. Along with readiness, information sharing among 
Federal, State, and local agencies must be strong when it comes to 
intelligence involving potential chemical, biological, radiological, or 
nuclear attacks.
    This Congress, I am an original co-sponsor of H.R. 1542, which 
strengthens intelligence and information sharing about weapons of mass 
destruction. It is my hope that this bi-partisan legislation will be 
voted favorably by this committee. This legislation is a step in the 
right direction, but there still is work left to be done. First 
responders, in all areas of risk, need to be fully capable and equipped 
to handle an attack--this means full funding of State and local grant 
programs by the Federal Government.
    This includes the Urban Area Security Initiative, or UASI. I will 
shortly be re-introducing legislation to once again provide a funding 
opportunity to communities like Buffalo and Niagara Falls for UASI, 
which were senselessly cut off from funding. Additionally, coordination 
needs to be improved among Federal, State, and local officials to have 
a response that is expedient and efficient. I look forward to witness 
testimony today and to hearing how we can work more to close the gaps 
that exist and provide resources needed to ensure we are resilient.

    Mr. Higgins. Mr. Chairman, I also ask for unanimous consent 
to allow Congressman Al Green, from Texas to participate in 
this hearing.
    Mr. King. No objection. Glad to welcome the interloper back 
one more time.
    Also, said the Ranking Member, you proposed a hearing on 
al-Qaeda in Iran. I think it is a very good recommendation. I 
will certainly discuss it with the Chairman of the full 
committee. But I think this is certainly a very appropriate 
topic for this committee, because especially since now the 
homeland security element has been brought in where, based on 
what the RCMP said, that this was going to be an attack against 
the American homeland.
    So it is not just an overseas issue; it is something which 
directly affects us. I think it definitely comes within the 
jurisdiction of our committee and subcommittee, and so you and 
I can discuss with the Chairman and the Ranking Member, but I 
certainly think it is an excellent idea and a very good 
proposal.
    Mr. Higgins. Thank you.
    Mr. King. Thank you.
    Other Members of the committee, if they arrived, are 
reminded that opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                             April 25, 2013
    I would also like to thank the witnesses for appearing to testify 
on our efforts to counter the threat from a chemical, biological, 
radiological, or nuclear attack. Let me begin by publically thanking 
the FBI, Joint Terrorism Task Force, Department of Homeland Security, 
and the State and local officials for their efforts in apprehending a 
suspect in the Boston Marathon bombing. Their efforts were a great 
example of State, local, and Federal agencies working together.
    State and local officials also need to work with Federal agencies 
to be prepared and ready in the event of an attack from chemical, 
biological, radiological, and nuclear weapons. In 2008, The Commission 
on the Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism produced a report called ``World at Risk''. In that report, 
they told us that they believed that a terrorist attack would occur 
somewhere in the world by 2013, and that it was more likely to be an 
act of biological terrorism.
    Well, 2013 is here and there are examples of how we need to be 
ready. During the week of April 15, we learned that poisoned letters 
were sent to a United States Senator and the President. While the 
poison contained in the letters, ricin, did not reach the Senate office 
nor the White House, the incident sparked terrible memories of the 2001 
anthrax attack which killed 5 people and infected 17 others.
    Not only can CBRN threats come from within our borders, but there 
are also CBRN threats from abroad. On Tuesday, Secretary of State Kerry 
told NATO that there needs to be a plan to guard against the threat of 
chemical weapons. We have also been paying close attention to North 
Korea, who has vowed to bolster its nuclear program. North Korea 
repeatedly violates United Nations Security Council resolutions that 
forbid the ``building and testing'' of long-range ballistic missiles. 
In testimony before the Senate Armed Services Committee, Admiral Samuel 
Locklear, commander of the U.S. Pacific Command, testified that North 
Korea's pursuit of nuclear weapons and long-range missiles represents a 
clear threat to the United States and its allies in the region. Admiral 
Locklear stated, in the event of an attack by North Korea, that he 
believes the United States has the ability to defend Guam, Hawaii, and 
U.S. allies. The Admiral rightfully has faith in the U.S. military as 
most Americans do. However, he is living in the reality of the 
continuing budget cuts that the Department of Defense, including 
Pacific Command, faces. According to the Admiral, the impacts of 
sequestration have created budget uncertainties, limiting our 
flexibility to manage risk and could potentially undermine our long-
term strategic rebalance momentum.
    Mr. Chairman, we have applauded not only the resilience of 
Americans throughout our tenure on this committee, but also those first 
responders and troops who protect and defend our country in the wake of 
both man-made and natural disasters. For instance, we are still 
applauding the people of Boston who are coming together singing ``Sweet 
Caroline'' in the wake of the horrific attack on one of their most 
cherished holidays. We rightfully and continuously salute the New 
Yorkers who have persevered in the wake of 9/11 as we have those who 
had to rebuild the Mississippi Gulf Coast after hurricanes and oil 
spills.
    But now, is Congress saying that it knows that we are living with a 
nuclear threat, but cannot adequately fund the military and the 
Americans who may be in harm's way? Can we not guarantee that in the 
event of an attack, we will provide our military with the resources 
that it needs to be as resolute as New Yorkers were in the wake of 9/
11?
    Since 9/11, there has been particular focus to not just the 
military, but first responders who must be ready for any type of 
catastrophic event, including an attack from a chemical, biological, 
radiological, or nuclear weapon. We saw and commended the efforts of 
first responders last Monday during the Boston Marathon attack. These 
first responders did not know whether the bomb was an IED or a ``dirty 
bomb''. They knew people were hurt and they needed to step in and save 
lives.
    Congress authorized funding for several cities and regions to make 
investments in emergency communications, planning, and response 
equipment. But during the 112th Congress, much to their surprise, 31 
cities and urban areas found that they became ineligible for grant 
funding that they rely upon to maintain their preparedness--through no 
fault of their own. This left several first responders without the 
ability to maintain the equipment they purchased to provide protection 
and assistance in the wake of a CBRN and other attacks. However, there 
are two areas of the country for which the Department of Homeland 
Security has created specific funding through its Securing the Cities 
program.
    I do not doubt that these areas need the money. I do not dare to 
say that these areas do not have vulnerabilities; however, it has been 
stated in previous hearings throughout several Congresses that a CBRN 
attack can happen almost anywhere in this Nation. As I stated 
previously, there are areas of the United States that are under a 
stated threat from the Supreme Leader of North Korea, and there are 
areas of the United States that are vulnerable to a CBRN attack from a 
lone wolf or terrorist cell. I hope our conversation today provides an 
opportunity to understand the role and needs of first responders 
related to CBRN threats. For this conversation to be productive, its 
content should not be concentrated to just one area of the country.

    Mr. King. Now, I am very pleased to introduce the 
distinguished panel of witnesses we have before us on this 
vital topic.
    On the panel first is Commissioner Richard Daddario, who is 
the deputy commissioner for counterterrorism with the New York 
City Police Department. Prior to assuming this position, 
Commissioner Daddario served as the U.S. Department of 
Justice's attache in Moscow, which is particularly interesting 
in view of all of the--I am not going to ask you about it 
today, but the discussion in the last week with the FBI and 
Russian intelligence and security services; I am sure you have 
some thoughts on that--and as an assistant U.S. attorney for 
the Southern District of New York.
    In his current position Commissioner Daddario is 
responsible for the NYPD's large complement of detectives 
assigned to the JTTF and the department's counterterrorism 
training and programs, including the Lower Manhattan Security 
Initiative and the Department of Homeland Security-funded, as 
you mentioned, Securing the Cities Initiative.
    Dr. Huban Gowadia is the acting director of the Domestic 
Nuclear Detection Office, DNDO, at the Department of Homeland 
Security. In this capacity Dr. Gowadia oversees integration of 
interagency efforts for technical nuclear detection and 
forensics and directs research, development, and evaluation, 
and acquisition activities for the Department's radiological 
and nuclear detection technologies.
    Dr. Gowadia served most recently at DNDO as the deputy 
director and previously served as assistant director of its 
Mission Management Directorate, where she was responsible for 
ensuring an effective link between user requirements, 
operational support, and technology development across the 
nuclear detection architecture.
    Scott McAllister is the deputy under secretary for State 
and local programs for the Office of Intelligence and Analysis 
at the Department of Homeland Security. In this role he manages 
the office responsible for Department and interagency support 
to the National Network of Fusion Centers.
    Before coming to the Department he was chief of 
investigators of the Fort Myers Regional Operation Center for 
the Florida Developments--Florida Department of Law 
Enforcement. He brings more than 36 years of State and local 
law enforcement experience, including roles as a major crimes 
detective, SWAT operator, and joint terrorism force agents. The 
kind of guy to stay away from, I should say.
    Dr. Leonard Cole is testifying today as a private citizen. 
Dr. Cole is the director of the Program on Terror Medicine and 
Security at the University of Medicine and Dentistry of New 
Jersey Center for Biodefense. He is also an adjunct professor 
in the school's department of emergency medicine and in the 
department of political science at Rutgers University Newark.
    Dr. Cole is a noted bioterrorism expert and has written 
numerous books and articles on this topic throughout his 
career. I found out today that he had one of his students go 
out and interview me several years ago. I hope I did okay in 
the interview; I don't know what she said.
    Okay. With that, I would now recognize the witnesses.
    I want to especially thank the Department, by the way, for 
agreeing to participate on one panel to include Government and 
non-Government witnesses. I realize this is a unique 
circumstances and I want to thank you for doing that.
    All the witnesses are reminded their written testimony will 
be submitted for the record, and I now recognize Commissioner 
Daddario for his testimony.
    Commissioner Daddario.

    STATEMENT OF RICHARD DADDARIO, DEPUTY COMMISSIONER FOR 
       COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Daddario. Chairman King, Members of the committee--
Congressman Higgins, Congressman Keating, and Congressman 
Green--thank you for the invitation to speak at today's 
hearing. The subject of the hearing, ``Counterterrorism Efforts 
to Combat a CBRN Attack on the Homeland,'' is especially timely 
in light of international developments, which I am sure concern 
everyone in this room. Some of those have been mentioned by 
Chairman King in his opening, and I am going to touch on some 
of those points in my statement.
    Very briefly, al-Qaeda has exploited the Arab Spring to its 
great advantage. Thousands of men who support its ideology have 
taken up arms to train and fight in Syria, Mali, Yemen, and 
other places in the Middle East and North Africa.
    Not so long ago we heard that al-Qaeda was close to defeat. 
Now we see it has an expansive space in which to operate, 
recruit, train, and plan in areas with weak governments and 
states where its ideology has significant public and political 
support. That ideology advocates attacks against the United 
States in the homeland.
    Iran appears to be intent on creating all the components it 
needs to assemble and deliver nuclear bombs. If it goes ahead 
and does that--and there is no reason to think it will not have 
that capability soon--it will be very difficult to prevent the 
proliferation of nuclear weapon technology in the Middle East.
    North Korea's intentions are unknown, at least to the 
police department and to me. However, its hostility to the 
United States is obvious. The danger, at minimum, that it could 
export its technical bomb-making expertise and its missile-
making expertise is, therefore, real.
    Now, the New York City Police Department pays close 
attention to these events because our city too often is the 
face of America to al-Qaeda and other enemies of the United 
States. I don't need to go over the history of attacks and 
plots against our city. Almost all the plots and attacks that 
you mentioned recently, including the Canada case that 
Congressman Higgins referred to, have in some way involved New 
York.
    New York City is in the crosshairs--it has been for a long 
time--and therefore, the police department and the city commit 
enormous resources to keep the city safe not only from 
conventional means of attack, but also by an attack using a 
radiological or improvised nuclear weapon. The possibility of 
such an attack is real.
    President Obama has said--and again, I am touching on some 
points that Congressman King raised--``the gravest danger to 
the American people is the threat of a terrorist attack with a 
nuclear weapon and the spread of nuclear weapons to dangerous 
enemies.'' He has also stated that ``the threat of global 
nuclear war has gone down, but the risk of nuclear attack has 
gone up,'' and, ``We must ensure that terrorists never acquire 
a nuclear weapon. This is the most immediate and extreme threat 
to global security.''
    The problem, as I have noted, is that the proliferation of 
nuclear technology, both to make bombs, to deliver bombs, is 
spreading.
    We could not address the radiological and nuclear threat 
effectively without the Securing the Cities program. If 
Congress had not had the vision to fund Securing the Cities, 
New York City would now be completely vulnerable to a form of 
attack which might well overwhelm our capacity to recover.
    Needless to say, the use of a dirty bomb or improvised 
nuclear device against our city would cause immeasurable 
personal, economic, political, and psychological harm not only 
to the city but to the United States. The police department in 
the city of New York does not run the Securing the Cities 
program alone. It has 12 principal partners in New York, New 
Jersey, and Connecticut, so this is a regional program; it is 
not simply based in the city of New York. These 12 principal 
partners represent 150 local law enforcement and public safety 
agencies within a 40-mile radius of New York City.
    The NYPD and its regional partners have achieved several 
important accomplishments. Among them, we have distributed and 
put to daily use enough personal radiation detectors, PackEye 
backpack detectors, radiological isotope identification 
devices, and mobile detection systems to afford us a measure of 
protection.
    We are close to achieving complete wireless connectivity of 
detection devices by the NYPD at its Lower Manhattan Security 
Coordination Center. Data from these devices is thereby 
viewable in real time and stored for analysis.
    We have developed one concept of operations for detection 
and interdiction of illicit radioactive materials. This concept 
of operations will enable the regional partners to lock down 
and secure the region based on 400 predetermined chokepoints in 
the face of an imminent threat.
    We have conducted land-based, maritime, and transportation-
based exercises involving surreptitiously transported 
radiological substance with great success. We did one in April 
2011 with all our partners over a 5-day period and had great 
success finding each of the radiological sources that were 
deployed during that exercise.
    Although we have made great progress, much work needs to be 
done. We need to put in place a permanent radiological 
defensive ring through the installation of fixed radiological 
detection equipment to monitor traffic at all bridges and 
tunnels that lead into the city. Now, I am not talking here 
about a portal over a lane; we are talking about using readily 
commercially available devices arrayed in ways using software 
so the we can detect a radiation source moving through traffic.
    We also need to procure more advanced equipment to enhance 
land, air, and sea detection capabilities and enforce 
procedures and programs for inventory control, standardization, 
maintenance, and calibration of equipment. All these things are 
essential to the operation of Security the Cities program not 
only in New York but also if it is going to be deployed in 
other cities.
    There are great lessons to be learned from what we are 
doing in New York that can be transported and applied to other 
cities where DNDO and the Congress may want to set up this 
program. So it is essential that the work in the city continue 
so that this program can be successful if there is an attempt 
to use it--transplant it to other cities.
    In closing, the Securing the Cities program has been an 
extraordinary example of interagency and intergovernmental 
collaboration that would not exist and could not exist without 
Federal funding. We thank you for your support and look forward 
to your support going ahead.
    Thank you very much.
    [The prepared statement of Mr. Daddario follows:]
                 Prepared Statement of Richard Daddario
                             April 25, 2013
    Thank you for the invitation to speak at today's hearing.
    The subject of the hearing--Counterterrorism Efforts to Combat a 
CBRN Attack on the Homeland--is especially timely in light of 
international developments which I am sure concern everyone in this 
room.
    Very briefly--al-Qaeda has exploited the Arab Spring to its great 
advantage. Thousands of men who support its ideology have taken up arms 
to train and fight in Syria, Mali, Yemen, and other places in the 
Middle East and North Africa. No so long ago, we heard that al-Qaeda 
was close to defeat. Now we see it has an expansive space in which to 
operate, recruit, train, and plan in areas with weak governments and 
states where its ideology has significant public and political support. 
That ideology advocates attacks against the United States.
    Iran appears to be intent on creating all the components it needs 
to assemble and deliver nuclear bombs. If it goes ahead and does that, 
and there is no reason to think it will not have that capability soon, 
it will be very difficult to prevent the proliferation of nuclear 
weapon technology in the Middle East.
    North Korea's intentions are unknown. However, its hostility to the 
United States is obvious. The danger, at minimum, that it could export 
its technical bomb-making expertise, is therefore real.
    The New York City Police Department pays attention to these events 
because our city too often is the face of America to al-Qaeda and other 
enemies of the United States. I don't need to go over the history of 
attacks and plots against our city. We are in the crosshairs and 
therefore commit enormous resources to keep the city safe not only from 
conventional means of attack, but also by an attack using a 
radiological or improvised nuclear weapon.
    The possibility of such an attack is real.
    President Obama has said:
  <bullet> ``The gravest danger to the American people is the threat of 
        a terrorist attack with a nuclear weapon and the spread of 
        nuclear weapons to dangerous regimes.''
  <bullet> ``The threat of global nuclear war has gone down, but the 
        risk of nuclear attack has gone up.''
  <bullet> ``We must ensure that terrorists never acquire a nuclear 
        weapon. This is the most immediate and extreme threat to global 
        security.''
    We could not address the radiological and nuclear threat 
effectively without the Securing the Cities Program. If Congress had 
not had the vision to fund Securing the Cities, New York City would now 
be completely vulnerable to a form of attack, which might well 
overwhelm our capacity to recover. Needless to say, the use of a dirty 
bomb or improvised nuclear device against our city would cause 
immeasurable personal, economic, political, and psychological harm to 
the United States.
    The NYPD does not run the Securing the Cities Program alone. It has 
12 principle partners in New York, New Jersey, and Connecticut. These 
12 principle partners represent 150 local law enforcement and public 
safety agencies within a 40-mile radius of New York City.
    The NYPD and its regional partners have achieved several important 
accomplishments, among them:
  <bullet> We have distributed and put to daily use enough personal 
        radiation detectors (PRDs), PackEye backpacks, radiological 
        isotope identification devices, and mobile detection systems to 
        afford us a measure of protection.
  <bullet> We are close to achieving complete wireless connectivity of 
        detection devices used by the NYPD to the Lower Manhattan 
        Security Coordination Center. Data from these devices is 
        thereby viewable in real time and stored for analysis.
  <bullet> We have developed one concept of operations for detection 
        and interdiction of illicit radioactive materials; this concept 
        of operations will enable the regional partners to lock down 
        and secure the region based on 400 pre-determined chokepoints 
        in the face of an imminent threat.
  <bullet> We have conducted land-based, maritime, and transportation-
        based exercises involving surreptitiously transported 
        radiological substances. In April 2011, the NYPD and its STC 
        partners conducted a full-scale, regional exercise designed to 
        evaluate our ability to detect and interdict illicit 
        radiological materials. The 5-day exercise involved chokepoints 
        and other activity in New York, Connecticut, and New Jersey 
        both on land, including rail and highways, and in the waterways 
        of the region.
    Although we have made great progress, much work needs to be done. 
We need to put in place a permanent radiological defensive ring through 
the installation of fixed radiological detection equipment to monitor 
traffic at all bridges and tunnels that lead into New York City. We are 
working with Domestic Nuclear Detection Office (DNDO) to accomplish 
this goal using existing, commercially available detection equipment.
    We also need to procure more advanced equipment to enhance land, 
air, and sea detection capabilities; and enforce procedures and 
programs for inventory control, standardization, maintenance, and 
calibration of equipment purchased with STC program funds across the 
region; continue work to network all the mobile radiation detection 
equipment purchased with STC program funds, not only that used by the 
NYPD; continue equipment training and exercises with the regional 
partners; and conduct advanced radiation detection and interdiction 
deployments on a regional scale to assure our operations are effective.
    The STC program has been an extraordinary example of interagency 
and intergovernmental collaboration that would not, and going forward, 
could not exist without Federal funding. We thank you for your support.

    Mr. King. Thank you, Commissioner Daddario.
    Now I recognize Dr. Gowadia for her testimony.
    Dr. Gowadia, you are recognized.

 STATEMENT OF HUBAN GOWADIA, ACTING DIRECTOR, DOMESTIC NUCLEAR 
     DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Gowadia. Good morning, Chairman King, Ranking Member 
Higgins, and distinguished Members of the subcommittee. Before 
I go into my prepared remarks I would like to echo the 
Secretary's sentiments regarding the recent Boston incident.
    Congressman Keating, my entire DNDO team joins me in 
expressing our significant concern for the victims of the 
incident. Our thoughts and prayers are with you.
    But getting back to the oral remarks here, sir, thank you 
for this opportunity to be here today with Deputy Commissioner 
Daddario, Under Secretary McAllister, and Dr. Cole to discuss 
the Domestic Nuclear Detection Office, or DNDO's, progress in 
coordinating the United States Government strategy to detect 
illicit radiological and nuclear materials.
    With your support and working with our Federal, State, and 
local partners, we have made significant progress in counter-
nuclear terrorism. It is a pleasure to be here today with the 
deputy commissioner and the deputy under secretary. Their 
support and assistance are fundamental to the mission you have 
given my office.
    Indeed, to maximize our ability to detect and interdict 
nuclear threats, it is imperative that we apply advanced 
technologies in operations that are driven by intelligence 
indicators and place them in the hands of well-trained law 
enforcement and public safety personnel. To this end, we have 
steadily increased our collaboration with the intelligence 
community and we continue to work with our stakeholders to 
build the domestic nuclear detection architecture.
    A stellar example of our collaborative effort is the 
Securing the Cities program. In its first implementation DNDO 
partnered with New York, New Jersey, and Connecticut. Over the 
past 6 years more than 13,000 personnel have been trained in 
nuclear detection operations and over 8,500 pieces of nuclear 
detection equipment have been procured and deployed in the 
region.
    In addition to frequent exercises, Securing the Cities 
partners conduct daily operations and routinely search to 
enhance operational postures based on information cues received 
in fusion centers.
    I am pleased to report that based on much success in the 
New York City region, last year we were able to expand the 
program to the Los Angeles-Long Beach area, as you mentioned, 
Mr. King.
    In addition to efforts under Securing the Cities, we have 
established relationships with over 35 States and territories. 
To guide their efforts, DNDO created a program management 
handbook with modules for specific operational detection 
environments. Once their capabilities are established, we 
support their operations by facilitating alarm adjudication 
from detection events in the field.
    We also partner with other stakeholders to develop and 
conduct exercises, annually supporting up to 12. To date, we 
have exercised nuclear detection operations with 20 States 
across the country.
    In partnership with our stakeholders, we have developed and 
implemented training standards. Since 2005, over 24,000 law 
enforcement and public safety personnel from across the country 
have participated in DNDO-supported training.
    As I mentioned earlier, timely and accurate information-
sharing is critical to the success of our mission. To this end, 
we work with our stakeholders--especially our I&A colleagues, 
to publish information bulletins summarizing relevant news 
articles, reports of lost and stolen sources, and other useful 
facts about radioactive materials.
    We consider the need to surge detection assets we use 
during special events, or we recognize the need to surge 
detection assets for special events or times of increased 
threat, and so we maintain trailer-based units with an 
extensive suite of nuclear detection equipment and 
communications capabilities that can be deployed across the 
country to augment the detection capabilities of our 
operational partners. Since 2009 we have deployed these units 
at more than 60 special security events and exercises.
    Finally, DNDO's red team partners with operational agencies 
to evaluate the nuclear detection systems and associated 
techniques, tactics, and procedures. This allows law 
enforcement and public safety officials to gain critical 
experience with uncommon nuclear sources, providing valuable 
feedback and leading to improved readiness and performance. In 
the last year DNDO conducted 30 red team assessments, both 
overt and covert.
    We have come a long way since our creation in 2005. We have 
maintained our legislatively-mandated singular focus and have 
developed enduring partnerships with the intelligence community 
and with law enforcement to strengthen the Nation's 
capabilities to detect and interdict nuclear threats. Indeed, 
it is our goal to make nuclear terrorism a prohibitively 
difficult undertaking for our adversaries.
    Thank you again for this opportunity to discuss DNDO's 
efforts to protect our Nation. I look forward to your 
questions.
    [The joint prepared statement of Ms. Gowadia and Mr. 
McAllister follows:]
   Joint Prepared Statement of Huban A. Gowadia and Scott McAllister
                             April 25, 2013
    Good morning Chairman King, Ranking Member Higgins, and 
distinguished Members of the subcommittee. We are pleased to testify 
today about the efforts of the U.S. Department of Homeland Security 
(DHS) Office of Intelligence and Analysis (I&A) and the Domestic 
Nuclear Detection Office (DNDO) to enhance information-sharing efforts 
with our State and local partners and protect against radiological and 
nuclear threats to the homeland.
    Our testimony today focuses on DHS' work and the ways we have 
sought to strengthen our collaboration with our State and local 
partners who are on the front lines protecting our communities. In the 
10 years since DHS was created, we have significantly improved our 
information sharing and operational collaboration as we work together 
to confront an evolving range of threats.
          dhs capacity building with state and local partners
    DHS I&A and DNDO, along with our Federal interagency partners at 
the Federal Bureau of Investigation (FBI) and the National 
Counterterrorism Center (NCTC), all ensure that State and local 
partners have the information and tools necessary to address evolving 
threats. To accomplish this mission, DHS has focused on four key 
priorities in working with our State and local partners:
  <bullet> Improve production and dissemination of classified and 
        unclassified information regarding threats to the homeland;
  <bullet> Continue to improve grassroots analytic capabilities through 
        the development of a National network of State and major urban 
        area fusion centers so that National intelligence can be 
        incorporated into a local context;
  <bullet> Standardize how we train State, local, Tribal, and 
        territorial (SLTT) law enforcement to recognize indicators of 
        terrorism-related criminal activity and report these suspicious 
        activities to Joint Terrorism Task Forces for investigation and 
        to fusion centers for analysis; and
  <bullet> Increase community awareness and encourage the public to 
        report suspicious activity to local authorities.
    Fusion centers represent the cornerstone of the distributed 
homeland security and counterterrorism architecture through their 
presence as a grassroots analytic and information-sharing capability at 
the local or State level. As part of the Implementing Recommendations 
of the 9/11 Commission Act of 2007 (Pub. L. 110-53), DHS was charged 
with leading the effort to coordinate with and support a network of 
State or local-led information sharing and analytic centers in States 
and major cities throughout the country.
    Through I&A's State and Local Program Office, DHS has included 
these fusion centers in the intelligence cycle by assisting fusion 
centers to build their capabilities to receive, analyze, and 
disseminate and gather information at the local level. I&A facilitates 
coordinated Federal support to fusion centers that results in a dynamic 
flow of information between Federal, State, and local partners, as well 
as the development of joint intelligence products and the rapid 
reporting of information with intelligence value.
    DHS has made considerable progress in assisting fusion centers to 
build necessary information-sharing capabilities by:
  <bullet> Deploying over 90 I&A intelligence personnel to fusion 
        centers throughout the country to coordinate with DHS component 
        intelligence and law enforcement personnel;
  <bullet> Deploying 70 Homeland Secure Data Network systems across the 
        country to provide access to Secret information and 
        intelligence at the local level;
  <bullet> Training State and local analysts at fusion centers to 
        ensure they have the necessary skills and expertise to analyze 
        and fuse intelligence and information from the intelligence 
        community with local/regional context and produce relevant and 
        timely products for their stakeholders; and
  <bullet> Developing tailored product lines to meet the needs of State 
        and local partners, and expanding the distribution of products 
        to ensure all relevant and appropriate information is shared 
        with State and local partners.
    <bullet> For example, I&A partnered with DNDO to ensure threat 
            products are available to fusion center analysts via the 
            Homeland Security Information Network (HSIN). These 
            resources include radiological and nuclear awareness 
            reports, as well as open-source information, detection 
            tips, and Nuclear Regulatory Commission (NRC) lost and 
            stolen source reporting (as appropriate).
    While America is stronger and more resilient as a result of these 
efforts to strengthen the Homeland Security Enterprise, threats from 
terrorism persist and continue to evolve. The Federal Government 
realizes that SLTT law enforcement, as well as citizens, businesses, 
and communities, are on the front line of detection and prevention 
efforts. Protecting the Nation is a shared responsibility in which the 
Federal Government benefits from a robust information-sharing 
infrastructure with State and local partners. These partners similarly 
benefit from the collaborative environment established within the 
fusion centers through their analysis of the National threat picture 
and the provision of products that are developed and tailored using 
local context to support the implementation of information-driven 
community-based solutions by local officials.
                   threat alert/notification process
    In the event of a credible threat to the homeland, I&A, as part of 
a broader, coordinated Department effort including DNDO and other 
subject matter experts depending on the type of threat, utilizes its 
previously-tested threat notification process to assist our customers. 
In order to effectively reach our stakeholders, the threat notification 
process is accomplished in several ways.
  <bullet> Depending on the classification and nature of the threat, 
        I&A may work with DNDO, National Protection Programs 
        Directorate (NPPD), the FBI, as well as other intelligence 
        community partners to produce a ``tearline,'' which is a lower 
        classification version of the report describing the threat.
  <bullet> The jointly prepared tearline would be used to notify the 
        Department's stakeholders of the threat through a Joint 
        Intelligence Bulletin, produced in conjunction with the FBI, to 
        describe the threat or incident.
  <bullet> Additional outreach would take place following the initial 
        notification of the threat via Secure Video Teleconference 
        (SVTC) or classified and unclassified teleconference, depending 
        on the nature of the threat. As the threat evolves or as we 
        receive more information, additional communication would be 
        initiated.
  <bullet> DHS may also use the National Terrorism Advisory System 
        (NTAS) to message the threat to a wider external audience. NTAS 
        Alerts are designed to appropriately notify the public and/or 
        institutions of specific and credible terrorist threats of a 
        limited duration. The alerts describe either ``Elevated'' or 
        ``Imminent'' threats, and may recommend certain protective 
        measures or suggest looking for specific suspicious behavior. A 
        specific and credible threat is based on intelligence reporting 
        from a reliable source or multiple sources, including enough 
        detail with respect to the attacker, target, method, 
        capability, or timing to permit countermeasures or pre-emptive 
        protective actions.
    <bullet> Elevated Alerts warn of a credible terrorist threat 
            against the United States and its territories that is 
            general in both timing and target, or details significant 
            trends and developments in terrorism such that it is 
            reasonable to recommend implementation of protective 
            measures to thwart or mitigate against an attack.
    <bullet> Imminent Alerts warn of a credible, specific, and 
            impending terrorist threat or on-going attack against the 
            United States and its territories that is sufficiently 
            specific and credible to recommend implementation of 
            protective measures to thwart or mitigate against an 
            attack.
      dndo's efforts to prevent radiological and nuclear terrorism
    Among the many threats we face as a Nation, nuclear terrorism poses 
one of the greatest threats to not only our security, but global 
security. Ensuring a coordinated response to credible intelligence of a 
nuclear threat is a whole-of-Government challenge. DNDO works with 
Federal, SLTT, international, and private-sector partners to develop 
radiological and nuclear detection capability in support of this 
mission. Working with partners from across the U.S. Government (USG), 
including the Departments of Energy (DOE), State, Defense, Justice, the 
intelligence community, and the NRC, DNDO develops the Global Nuclear 
Domestic Architecture (GNDA) and implements its domestic component. 
Specifically, DNDO coordinates with interagency partners and leads 
programs to develop technical nuclear detection capabilities, measure 
detector system performance, ensure effective response to detection 
alarms, and conduct transformational research and development for 
advanced detection technologies. Additionally, DNDO coordinates and 
improves nuclear forensics capabilities across the USG.
    SLTT contributions are vital to the GNDA and we continue to work 
with these critical partners to build a flexible, multi-layered, 
domestic nuclear detection architecture based on capabilities that can 
be utilized by the Radiological Nuclear Strategic Group, led by the 
FBI, to integrate all assets and capabilities into a unified response 
when intelligence or information indicates a credible nuclear threat.
    While DHS focuses on threats of all types, DNDO's singular focus is 
the prevention of a nuclear terrorism threat. The United States' 
ability to counter the nuclear threat is based on the critical triad of 
intelligence, law enforcement, and technology. To maximize our ability 
to detect and interdict nuclear threats, we apply detection 
technologies in operations driven by intelligence indicators and place 
them in the hands of well-trained law enforcement and public safety 
personnel. In the event of a radiological or nuclear event, the FBI 
would lead the CT/WMD Operational Response.
    DNDO programs specific to the development of radiological and 
nuclear detection capability by SLTT entities include:
                            planning support
    DNDO provides planning guidance to GNDA partners on developing, 
managing, evaluating and sustaining their radiological and nuclear 
detection programs. Through Program Assistance, DNDO helps multi-
jurisdictional policy makers, program managers, and operational 
administrators work together to design and implement radiological and 
nuclear detection programs that build and enhance detection 
capabilities in support of the GNDA. Generally, detection programs are 
integrated into and leverage existing operational assets which 
decreases overall costs and increases operational impact.
    DNDO has established formal working relationships with over 30 
States and territories and works with SLTT partners to mature and 
advance radiological and nuclear detection and reporting capabilities. 
DNDO has developed a framework of scalable processes and products 
including concepts of operation, standard operating procedures, lessons 
learned, and best practices that can be tailored to the needs of the 
SLTT partner. Specific products include:
  <bullet> The Preventive Radiological and Nuclear Detection (PRND) 
        Program Management Handbook, with modules for specific 
        operational environments such as Commercial Vehicle Inspection, 
        Small Maritime Vessel Operations and Special Events, provides 
        guidance for the administration of a domestic radiological and 
        nuclear detection program at both the senior policy making and 
        operational levels.
  <bullet> The National Incident Management System (NIMS) PRND Resource 
        Type Definitions categorize equipment, teams, and personnel 
        consistent with other NIMS resource types to facilitate 
        identification, inventory, and tracking. With direct State and 
        local participation, DNDO developed the NIMS PRND Resource 
        Types in 2011 to assist SLTT stakeholders with defining and 
        building radiological and nuclear detection capability and to 
        enable jurisdictions to categorize and deploy resources through 
        Emergency Management Assistance Compacts or other interstate 
        mutual aid agreements.
  <bullet> The West Coast Maritime Pilot was implemented in the Puget 
        Sound and San Diego to facilitate development of radiological 
        and nuclear detection capabilities in maritime regions 
        throughout the United States. Based on lessons learned, DNDO 
        works with regional Area Maritime Security Committees to 
        provide assistance in developing operational procedures, 
        training, and exercises to develop radiological and nuclear 
        detection capabilities that support the region's Area Maritime 
        Security Plans.
                                training
    DNDO provides training products and support to develop, enhance, 
and expand radiological and nuclear detection capabilities in support 
of the GNDA. In partnership with the Federal Emergency Management 
Agency (FEMA), DOE, and the Federal Law Enforcement Training Center, 
DNDO develops and implements protocols and training standards for the 
effective use of radiation detection equipment and associated alarm 
reporting and resolution processes. DNDO also develops training 
curricula in support of emerging detection technologies and operational 
profiles. Since inception, over 24,000 law enforcement and public 
safety personnel from 35 States have participated in DNDO-supported 
radiological and nuclear detection training.
                               exercises
    DNDO provides assistance in developing, designing, and conducting 
exercises that are compliant with the Homeland Security Exercise and 
Evaluation Program methodology. The exercises provide valuable hands-on 
experience for personnel performing radiological and nuclear detection 
operations and assist decision makers in integrating the detection 
mission into their daily operations. To date, DNDO has conducted 
exercises with 20 States and annually supports up to 12 exercises. DNDO 
continues to develop and apply standardized and tailorable exercise 
templates and guidelines evaluating the implementation and performance 
of Federal and SLTT radiological and nuclear detection programs.
                               engagement
    DNDO sponsors strategic engagements with State and local leaders 
via an Executive Steering Council (ESC) and a State and Local 
Stakeholder Working Group (SLSWG). The ESC and the SLSWG forums are 
part of DNDO's on-going outreach to and collaboration with SLTT 
agencies involved in radiological and nuclear detection. They are 
specifically designed to obtain feedback on DNDO's initiatives, learn 
about advances in SLTT, and facilitate communication, coordination, and 
collaboration within the radiological and nuclear detection community.
                         joint analysis center
    DNDO's Joint Analysis Center (JAC), which is supported by detailees 
from DOE, USCG, and the FBI, provides awareness of the GNDA as well as 
technical support and informational products to Federal, State, and 
local entities. I&A and the JAC regularly collaborate on the 
development of these products.
    Utilizing the Joint Analysis Center Collaborative Information 
System (JACCIS), the JAC facilitates nuclear and radiological alarm 
adjudication and consolidates and shares information and databases. 
JACCIS provides a process for Federal and SLTT agencies to share 
radiological and nuclear detection information. The JACCIS Dashboard 
provides a secure web interface to collaborate with mission partners 
and uses a geographic information system to show detection information, 
detectors, situational awareness reports, and other overlays in a 
geospatial viewer. Web service interfaces to other mission partners' 
systems and content routers provide linkages to detection assets in 
real time. This same technology is employed to connect JACCIS to the 
TRIAGE system, maintained by the Department of Energy, National Nuclear 
Security Administration, to adjudicate alarms. This connection allows a 
seamless transition of alarm adjudication in JACCIS to be elevated to 
TRIAGE for National-level adjudication assistance.
                     test and evaluation assistance
    Federal, State, local, and Tribal partners require reliable 
information on the technical performance, operational effectiveness, 
and suitability and limitations of currently available radiological and 
nuclear detection equipment to develop effective detection programs. 
DNDO has established a robust test and evaluation capability to 
rigorously test commercially available radiological and nuclear 
detection systems against National and international standards and in 
operational scenarios faced by Federal and SLTT end-users. DNDO 
involves operational partners in the planning and execution of test 
events ensuring equipment is tested in the manner in which it is used 
and provides operators with valuable hands-on experience with detection 
equipment and special nuclear material sources. Such tests 
independently assess systems to confirm vendor performance claims and 
provide operational data to develop effective concepts of operation. 
Since inception, DNDO has conducted over 80 tests and evaluations that 
involve all classes of radiological and nuclear detection systems, 
including personal radiation detectors, handheld, backpack and mobile 
detection systems, radiation portal monitors, and radiation detection 
systems suitable for maritime environments and aerial platforms. The 
results of these efforts are shared with operational partners.
                                red team
    DNDO fields a unique Red Team to objectively assess the operational 
effectiveness and performance of DNDO programs and deployed 
radiological and nuclear detection capabilities at the Federal and SLTT 
levels. This capability evaluates deployed systems and operations and 
their associated tactics, techniques, and procedures, in as-close-to-
realistic environments as possible. As covert and overt assessments are 
generally the only opportunity for operators of radiological and 
nuclear detection systems to gain experience detecting uncommon nuclear 
sources, these operations provide them with valuable feedback on the 
performance of their tactics, techniques, and procedures. This feedback 
enables operators to improve their concepts of operation and readiness. 
In the past year, DNDO conducted 30 overt and covert assessments.
                 new technologies for nuclear detection
    DNDO continues to develop breakthrough technologies with 
significant operational impacts on our National capability to detect 
radiological and nuclear threats. For example, DNDO led the development 
of next-generation Radioisotope Identification Devices which are used 
by law enforcement officers and technical experts during routine 
operations. DNDO worked closely with U.S. Customs and Border Protection 
(CBP), U.S. Coast Guard (USCG), the Transportation Security 
Administration (TSA), and State and local operators to identify key 
operational requirements that drove the design of the new system. Based 
on an enhanced detection material, lanthanum bromide, and improved 
algorithms, this new handheld technology is easy-to-use, lightweight, 
and more reliable, and because it has built-in calibration and 
diagnostics, has a much lower annual maintenance cost. DNDO proactively 
engages industry to procure commercial off-the-shelf devices to field 
other new technologies for nuclear detection. DNDO procures these 
devices to be used by CBP, USCG, and TSA.
    Additionally, DNDO has funded the development of radiation sensing 
materials such as Strontium Iodide (SrI<INF>2</INF>) and CLYC 
(Cs<INF>2</INF>LiYCl<INF>6</INF>). In October 2012 a major milestone 
was reached as SrI<INF>2</INF> and CLYC became commercially available 
for use in radiation detection equipment. This new generation of 
detectors will greatly benefit Federal, State, and local law 
enforcement and public safety personnel, because the devices are 
relatively inexpensive and provide significantly improved performance.
                      securing the cities program
    Since 2007, DNDO has supported the Securing the Cities (STC) 
Program to develop State and local capabilities to detect and prevent 
illicitly-trafficked nuclear materials that may be used as a weapon 
within high-threat/high-density urban or metropolitan areas. The 
program assists regions, selected through a competitive application 
process, to enhance regional capabilities to detect, identify, and 
prevent nuclear materials that are out of regulatory control; guide the 
coordination of Federal and SLTT entities in their roles defined by the 
GNDA; and encourage participants to sustain the nuclear detection 
program over time.
    There are three phases to the program. In Phase I, DNDO assists 
State and local partners to develop a region-wide initial operating 
capability that is mutually supported through cooperative agreements, 
regional concepts of operations, interoperable equipment, collective 
training, and progressive exercise planning. In Phase II, DNDO provides 
additional resources to build upon the initial capabilities to enhance 
detection, analysis, communication, and coordination to better 
integrate State and local assets into Federal operations. In Phase III, 
STC works with regional partners to maintain connectivity with the 
established local architecture through alarm adjudication and subject 
matter expertise and provides advice on long-term training, exercise, 
and program support.
    In the first STC implementation, DNDO partnered with State and 
local agencies in the New York City, Jersey City, and Newark areas. 
Over the past 6 years, more than 13,000 personnel have been trained in 
radiological and nuclear detection operations in the region and over 
8,500 pieces of radiological and nuclear detection equipment have been 
procured and deployed. In addition to frequent exercises, STC partners 
conduct daily operations and routinely surge to enhanced operational 
postures based on information cues received in fusion centers.
    Seeking to leverage the lessons learned from the first STC 
implementation and improve the radiological and nuclear detection 
capability of additional high-threat/high-density urban areas, in 2012, 
DNDO selected the Los Angeles/Long Beach area as the next metropolitan 
area for STC implementation.
                            surge capability
    The ability to surge resources for use during special events, times 
of increased threat, or in response to information or events that 
indicate the need for enhanced detection capabilities, is critical. 
DNDO's Mobile Detection Deployment Program maintains trailer-based 
units outfitted with an extensive suite of radiological and nuclear 
detection equipment and communications capabilities. These Mobile 
Detection Deployment Units (MDDUs) are deployed regionally across the 
United States and offer a National radiological and nuclear detection 
surge package that can be deployed as needed to assist stakeholders to 
augment their capabilities. Each MDDU is configured to outfit numerous 
personnel and contains a number of mobile units, backpacks, high-
resolution handheld devices, personal radiation detection devices, 
communications and tracking equipment. When deployed, the MDDU is 
accompanied by technical support staff to train personnel on the use of 
equipment and to help integrate these surge capabilities into other 
protective operations. Since 2009, DNDO has deployed MDDUs for 
radiological and nuclear detection surge operations in support of 
Federal and SLTT law enforcement and public safety personnel during 
more than 60 special security events and exercises.
                       national rad/nuc challenge
    To share best practices within the operational community, stimulate 
interest, and facilitate improvements in detection equipment so as to 
strengthen National radiological and nuclear detection capabilities, 
DNDO initiated the National Rad/Nuc Challenge. Through head-to-head 
competition, the Challenge will highlight excellence in detection 
efforts and encourage participants to enhance skills.
             responding to the national crisis for helium-3
    Helium-3 (\3\He) is an important element used in many National 
security, homeland defense, and medical applications. For decades, 
\3\He has been used as a neutron detection component for radiation 
detection devices. In 2008, a critical \3\He shortage was identified as 
demand outpaced the supply. Fortunately, DNDO was already exploring 
options for better, more cost-effective, alternatives for neutron 
detection. Once the shortage was identified, DNDO accelerated the 
process and led an interagency working group to address the development 
and use of alternative neutron detection technologies. DNDO also 
created a competitive application process through which SLTT agencies 
developing or enhancing radiation and nuclear detection capabilities 
would be eligible to receive an allotment of \3\He. This effort has 
resulted in the distribution of over 500 liters of \3\He to SLTT 
agencies since 2010.
                               conclusion
    In just a few short years, we have transformed how we work 
together--to share information, build our capabilities, combat threats 
in our communities, and address our shared challenges. As a result, 
today we are better at understanding risks, leveraging intelligence and 
information, and making sure that information is incorporated into law 
enforcement efforts across the United States. Through robust 
partnerships with State and locally-owned and -operated fusion centers, 
as well as an integrated approach to implementing programs such as the 
GNDA, we continue to strengthen the Nation's capabilities to detect all 
types of threats, including nuclear terrorism. Our efforts are not only 
advancing the capabilities and operational readiness of our partners, 
but are also enhancing National deterrence against a serious threat to 
our homeland.
    We appreciate your continued support as we work with our partners 
to develop, evaluate, deploy, and support the necessary systems and 
resources to effectively share threat information and implement a 
nuclear detection architecture that can effectively protect the 
homeland, in response to credible, timely intelligence about 
radiological and nuclear threats.
    Chairman King, Ranking Member Higgins, we thank you for the 
opportunity to discuss the on-going efforts of I&A and DNDO to prevent 
and protect against this threat.
    We are happy to answer any questions the subcommittee may have.

    Mr. King. Thank you, Dr. Gowadia.
    Now I recognize Mr. McAllister.
    Mr. McAllister.

 STATEMENT OF SCOTT MC ALLISTER, DEPUTY UNDER SECRETARY, STATE 
AND LOCAL PROGRAM OFFICER, OFFICE OF INTELLIGENCE AND ANALYSIS, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McAllister. Good morning, Chairman King, Ranking Member 
Higgins, and distinguished Members of the committee. Our 
condolences are also echoed, as the Secretary and Dr. Gowadia 
has expressed, to the victims and their families from the 
tragic event that had occurred in Boston.
    Thank you for the opportunity to discuss the role of DHS 
Office of Intelligence and Analysis in addressing the 
radiological and nuclear threat in the United States.
    I&A agrees with the 2012 assessment from the director of 
national intelligence that a mass attack by a foreign terrorist 
group involving chemical, biological, radiological, or nuclear 
weapons in the United States is unlikely. However, the DNI also 
highlighted that the intelligence community remains concerned 
about limited attacks that could occur with little or no 
warning because terrorist organizations and other non-state 
actors remain interested in conducting this type of attack.
    In light of the current global threat environment and as 
highlighted by the recent tragic events in Boston, the 
relationships and processes we have built to share information 
with our State and local partners are more important than ever. 
As a former Governor, Secretary Napolitano understands the 
critical role State and local governments play in protecting 
their communities. As she has oftentimes said, homeland 
security begins with hometown security.
    It is essential that State and local partners have the 
necessary tools and capabilities not only to support National 
security efforts, but at the same time, can be leveraged to 
enhance local priorities. Strengthening these capabilities are 
critical to counter today's evolving threat, particularly when 
individuals responsible for the threats increasingly operate 
within the United States and do not travel or communicate with 
those overseas.
    In support of this, DHS is committed to pursue a layered 
approach, working with our State and local partners to build a 
domestic counterterrorism capability. This approach includes 
training front-line officers to recognize and report behaviors 
that maybe indicate criminal activity associated with terrorism 
through the Nation-wide Suspicious Activity Reporting 
Initiative. It involves engaging our public through public 
awareness campaigns, such as, ``If you see something, say 
something,'' by emphasizing the importance of reporting 
suspicious activity to the proper law enforcement authorities.
    Finally, support to the National network of State and 
locally-owned and -operated fusion centers, furthering their 
role as the central information-sharing conduit between and 
among multiple disciplines and multiple levels of Government.
    As directed in the Implementing Recommendations of the 9/11 
Commission Act of 2007, the State and local program office of 
Intelligence and Analysis leads in coordination of Federal 
support to the National Network of Fusion Centers. Protecting 
the Nation is a shared responsibility and the Federal 
Government benefits from a robust information-sharing 
infrastructure with our State and local partners.
    I&A has made considerable progress in assisting fusion 
centers to build out this information-sharing capabilities by 
deployment of intelligence personnel, the connection of 
classified homeland secure data networks, sponsoring secret-
level clearances to our State and local partners, providing 
training and technical assistance for our State and local 
fusion center analysts, and developing tailored products to 
meet the needs of our State and local stakeholders. For 
example, I&A partners with DNDO to provide fusion center 
analysts with radiological and nuclear awareness reports, open-
source information, detection tips, and relevant Nuclear 
Regulatory Commission lost or stolen source reporting.
    In the event of a credible threat to the homeland, I&A 
leverages the expertise of appropriate subject matter experts, 
such as those in DNDO's Joint Analysis Center, to develop 
products and information for distribution through our 
established information-sharing architecture. In order to 
effectively reach our stakeholders, I&A utilizes its existing 
threat notification processes to include roll call releases, 
terror lines, joint intelligence bulletins that we produce in 
partnership with the Federal Bureau of Investigation, the 
National Counterterrorism Advisory System, secure video 
teleconferences, and other means of communication.
    Additionally, I&A has remained proactive over the past year 
in disseminating information to our State and local partners on 
the threat posed by radiological and nuclear attack as well as 
providing the information of potential attack indicators and 
recommended reporting requirements. Products developed and 
distributed through personnel and information systems that I&A 
has deployed help ensure that our State and local partners have 
access to the necessary information they need to protect their 
communities.
    I thank you for the opportunity to discuss the efforts of 
I&A in sharing information and intelligence with our State and 
local partners and our pursuit of getting the right information 
to the right people in a timely manner, and I am happy to 
answer any questions the subcommittee may have.
    Thank you.
    Mr. King. Thank you, Mr. McAllister.
    Now I would recognize Dr. Cole.
    Dr. Cole.

   STATEMENT OF LEONARD A. COLE, DIRECTOR, PROGRAM ON TERROR 
MEDICINE AND SECURITY, UNIVERSITY OF MEDICINE AND DENTISTRY OF 
                           NEW JERSEY

    Mr. Cole. Thank you, Mr. Chairman. Oops, you heard me. 
Thank you very much, and the distinguished Members of the 
subcommittee--Representative Keating, Representative Green, 
good to see you again. I thank, as well, the full committee's 
Chairman McCaul and Ranking Member Thompson for their 
leadership on homeland security.
    The bombings at the Boston Marathon 10 days ago and the 
subsequent letters containing ricin mailed to President Obama 
and Senator Wicker continue to consume our Nation's attention. 
They underscore the vital importance of addressing the 
terrorist threat in general and the CBRN threat in particular.
    Last November I was privileged to review with this 
subcommittee the paper titled ``WMD Terrorism,'' which I co-
edited with Randall Larson on behalf of the Aspen Institute's 
Homeland Security WMD Working Group. WMD, of course, stands for 
weapons of mass destruction, which is a term that is generally 
equivalent to CBRN.
    The Aspen Working Group project, under the direction of 
Clark Ervin, provided an update on recommendations made in 2008 
by the bipartisan Commission on the Prevention of Weapons of 
Mass Destruction Proliferation and Terrorism. Among the Aspen 
paper's proposed actions was a call for reauthorization of the 
Pandemic and All-Hazards Preparedness Act. I am pleased to note 
that last month, after passage by both houses of Congress, 
President Obama signed the act into law.
    The act provides funding for numerous protective measures, 
including reinforcing the Nation's--the Strategic National 
Stockpile, which contains medicines and equipment appropriate 
to CBRN threats. The stated goal is to deliver items from the 
stockpile anywhere in the United States within 12 hours. Just 
weeks ago, defenses against smallpox were strengthened with the 
introduction into the stockpile of a novel antiviral drug 
called Arestvyr.
    Another of our Aspen paper's proposals was to advance 
public-private collaboration toward enhancing medical response 
capabilities. Again, last month a consortium of public, 
private, and academic institutions announced the establishment 
of a major new influenza vaccine development facility at Texas 
and A&M University.
    The consortium is one of three centers for innovation 
introduced by the U.S. Department of Health and Human Services 
in mid-2012. The centers were established to develop and hasten 
the availability of medical countermeasures, such as 
antibiotics and antidotes, for biological, chemical, and 
radiological threat agents.
    Welcome as these actions have been, other protective needs 
remain inadequately addressed. At last November's hearing 
Congressman Pascrell voiced misgivings about the absence of a 
special assistant for biodefense who would report directly to 
the President. This lapse continues, as do other weaknesses in 
our biodefense structure, including the lack of uniform 
security requirements for laboratories that work on select 
biological threat agents.
    CBRN threats have also been heightened by recent 
international events. Allegations that chemical weapons were 
used in Syria either by its government or by opposition forces 
remain unresolved. In any case, worries persist that in the 
midst of the civil war there, Syrian chemical agents could fall 
into the hands of terrorists.
    Nuclear proliferation also remains worrisome, as we have 
been discussing here, especially because of Iran's failure to 
curb its apparent efforts to acquire nuclear arms. Nuclear 
concerns were further escalated just last month when North 
Korea threatened to target the United States with nuclear 
weapons.
    Every effort should be made to reduce these threats, but 
they also signal the need for improved readiness in the event 
of a nuclear detonation on American soil. In this regard, the 
Aspen paper called attention to a valuable initiative by the 
Center for Biosecurity called ``Rad Resilient City.'' I am 
holding this up. It is a publication that I think would be 
well-distributed to local and regional people in charge of 
having to respond in case there were the horribly unfortunate 
of having a nuclear detonation of any consequence on American 
soil.
    Other protective measures against high-level radiation 
exposure should also be explored. For example, the new field of 
terror medicine might include the stockpile in blood banks of 
umbilical cord blood. Rich in stem cells, this blood could help 
seed production of people's blood cells whose natural 
production had been damaged by radiation exposure.
    For all these reasons, coupled with the fact that al-Qaeda 
and other terrorist groups have sought to acquire weapons of 
mass destruction, I am very grateful that this subcommittee is 
focused on enhancing America's preparedness and response 
capabilities for a possible CBRN attack.
    Thank you.
    [The prepared statement of Mr. Cole follows:]
               Prepared Statement of Leonard A. Cole \1\
---------------------------------------------------------------------------
    \1\ Unless otherwise indicated the views expressed here are my own 
and not representative of any institution.
---------------------------------------------------------------------------
                             April 25, 2013
    Chairman King, Ranking Member Higgins, former Chairman Meehan, 
distinguished Members of the subcommittee, thank you for inviting me 
again to speak on the CBRN threat to the homeland. I thank as well the 
full committee's Chairman McCaul and Ranking Member Thompson for their 
leadership on homeland security. The bombings at the Boston Marathon 10 
days ago, and the subsequent letters containing ricin mailed to 
President Obama and Senator Wicker, have consumed our Nation's 
attention. They underscore the vital importance of addressing the 
terrorist threat in general and the CBRN threat in particular.
    Last November, I was privileged to review with this subcommittee 
the paper titled WMD Terrorism, which I co-edited with Randall Larsen 
on behalf of the Aspen Institute's Homeland Security WMD Working Group. 
(WMD--Weapons of Mass Destruction--is a term equivalent to CBRN.) The 
Aspen Working Group, under the direction of Clark Ervin, provided an 
update on recommendations made in 2008 by the bipartisan Commission on 
the Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism (WMD Commission).
    Among the Aspen paper's proposed actions was a call for 
reauthorization of the Pandemic and All-Hazards Preparedness Act 
(PAHPO). I am pleased to note that last month, after passage by both 
houses of Congress, President Obama signed the act into law. The act 
provides funding for numerous protective measures including reinforcing 
the Strategic National Stockpile, which contains medicines and 
equipment appropriate to CBRN threats. The stated goal is to deliver 
items from the stockpile anywhere in the United States within 12 hours. 
Just weeks ago, defenses against smallpox were strengthened with the 
introduction into the stockpile of a novel antiviral drug, Arestvyr 
(though with questions by some about the drug's cost).
    Another of our paper's proposals was to advance public-private 
collaboration toward enhancing medical response capabilities. Again, 
last month, a consortium of public-private-academic institutions 
announced the establishment of a major new influenza vaccine 
development facility at Texas A&M University. The consortium is one of 
three Centers for Innovation introduced by the U.S. Department of 
Health and Human Services in mid-2012. The centers were established to 
develop and hasten the availability of medical countermeasures such as 
antibiotics and antidotes for biological, chemical, and radiological 
threat agents.
    Welcome as these actions have been, other protective needs remain 
inadequately addressed. At last November's hearing, Congressman 
Pascrell voiced misgivings about the absence of a special assistant for 
biodefense who would report directly to the President. This lapse 
continues, as do other weaknesses in our biodefense structure including 
the lack of uniform security requirements for laboratories that work on 
select biological threat agents.
    CBRN threats have also been heightened by recent international 
events. Allegations that chemical weapons were used in Syria either by 
its government or by opposition forces remain unresolved. In any case, 
worries persist that in the midst of the civil war there, Syrian 
chemical agents could fall into the hands of terrorists. Nuclear 
proliferation also remains worrisome, especially because of Iran's 
failure to curb its apparent efforts to acquire nuclear arms. Nuclear 
concerns were further escalated last month when North Korea threatened 
to target the United States with nuclear weapons.
    Every effort should be made to reduce these threats. But they also 
signal the need for improved readiness in the event of a nuclear 
detonation on American soil. In this regard the Aspen paper called 
attention to a valuable initiative by the Center for Biosecurity called 
``Rad Resilient City.'' Other protective measures against high-level 
radiation exposure should also be explored. For example, the new field 
of terror medicine might include the stockpiling in blood banks of 
umbilical cord blood. Rich in stem cells, this blood could help seed 
production of people's blood cells whose natural production had been 
damaged by the radiation exposure. (This storage plan has long been 
advocated by the University of Medicine and Dentistry's Dr. Norman Ende 
and Dr. Kenneth Swan.)
    For all these reasons, coupled with the fact that al-Qaeda and 
other terrorist groups have sought to acquire weapons of mass 
destruction, I am grateful that this subcommittee is focused on 
enhancing America's preparedness and response capabilities for a 
possible CBRN attack.
                          Attachment [Excerpt]
                  opinion: preparing for the next one
NorthJersey.com.--Leonard A. Cole is Director of the Program on Terror 
Medicine and Security at the University of Medicine and Dentistry of 
New Jersey. His most recent book, co-edited, is ``Local Planning for 
Terror and Disaster: From Bioterrorism to Earthquakes.''

    THE BOMBINGS at the Boston marathon Monday were a devastating 
reminder that the American homeland remains vulnerable to terrorism. 
Three people were killed, 176 injured, and judging from media coverage 
millions of Americans feel aggrieved. The country has been deeply 
shaken in part because the attack was such a surprise. It was 
especially shocking to those who had come to believe that terrorism was 
no longer a major concern.
    To be sure, law enforcement officials and other emergency 
responders have maintained an awareness of the terrorism threat. But 
for many in the general population the heightened concern prompted by 
the 2001 attack on the World Trade Center had given way to complacency. 
This was reflected in Gallup polls during the past decade. After 9/11, 
85 percent of Americans worried that another terrorist attack could be 
imminent. Ten years later the worriers had declined to 38 percent. The 
marathon bombings may reverse the trend.
    In fact, about 50 terrorist plots against the United States have 
been thwarted since 9/11. At least 15 of them had targeted New York 
City, according to the city's Police Commissioner Raymond Kelly. 
Several plots, including the 2010 bombing attempt in Times Square, 
nearly succeeded. After a street vendor saw smoke coming from a parked 
car, he alerted the police. An ignited bomb was found in the vehicle, 
but police were able to disarm it before it could explode. Such close 
calls evidently had little effect on the public's declining unease 
about terrorism.
    Even the shooting in 2009 at Fort Hood, Texas, by Major Nidal Malik 
Hasan, failed to stir a public reaction comparable to that by the 
Boston marathon attack. Hasan killed 13 and wounded 29. While firing 
his weapon, he repeatedly shouted Allahu Akbar (``God is Great''). In 
the previous months he had corresponded by email with Anwar al-Awlaki, 
then a senior al-Qaeda operative in Yemen. Still, the Obama 
administration considers Hasan's attack not an act of terrorism but 
only of ``workplace violence.''
    Words that describe an action may frame how others view and react 
to it. Thus the Fort Hood shootings like other mass shootings, as at 
the Newtown, Conn., elementary school, are attributed to deranged 
individuals. Although horrible in their own right, they are not seen as 
inspired by any belief system. Conversely, terrorist violence is driven 
by ideological, political, or religious motivation. The terrorist's 
intended target is not just innocent individuals, but an entire nation 
or society. The aim is not just to kill but to demoralize, to demean, 
and ultimately to bend the will of the population.
Terrorism remains a threat
    The Boston attack has reanimated the pain of 9/11 along with 
questions about the country's vulnerability. Many uncertainties remain. 
But the attack underscored the danger of holding the illusory notion 
that terrorism is not a serious threat. It also demonstrated how, with 
proper preparedness, lives could be saved and the national will 
strengthened.
    The Boston assault was consistent with past efforts by terrorists 
to damage prominent American symbols. This annual marathon event has 
not only typically been festive, but iconic. It is held on Patriot's 
Day, which commemorates the first battles of the Revolutionary War. The 
nature of the event also meant that many protective measures were in 
place. Both security personnel and medical support were readily 
available. This led to a quicker and more effective response than might 
be expected in other venues.
    The two bombs exploded seconds apart about 100 yards from the 
finish line. After the blasts, race participants and bystanders 
immediately began to comfort the injured and move them to safer areas. 
Police, emergency medical technicians, physicians, and nurses appeared 
almost as quickly. Later, all the responders received high praise for 
their courageous and selfless rescue efforts. But scant notice has been 
given to the unusual circumstances that permitted this exemplary 
response.
    In any marathon, the strenuous 26.2-mile run is likely to result 
for some in injury and illness. Runners experience falls, abrasions, 
sprained ankles, dehydration, exhaustion, and more. The exertion at 
times can even be life-threatening: Participants in past marathons have 
had heart attacks and died. Thus, stationing medical resources at these 
races has become common practice. New York City marathons, for example, 
have attracted more than 1,000 medical volunteers to provide emergency 
care at a network of tented field hospitals along the route.

    Mr. King. Thank you, Dr. Cole.
    I now recognize myself for questions.
    Dr. Gowadia, you mentioned about special events where there 
may be a nuclear detection surge. Would the Boston Marathon or 
other marathons be in that category?
    Ms. Gowadia. Yes, Mr. King. We actually have these trailer 
units which we can deploy upon request.
    We do tailgate training out the back; we have technical 
support that goes out with the systems. There are 
communications elements to it, all kinds of mobile detection 
gear. Twenty to 40 personnel can be immediately trained and 
integrated into the existing operation.
    Mr. King. Now, does that depend on the local event 
requesting it, or the local municipality?
    Ms. Gowadia. Yes, sir, it does. We are always open to 
hearing from and bringing this asset out. It is created 
expressly for their use.
    Mr. King. Okay. Do you want to say whether or not it was 
present at the Boston Marathon, or would you rather not?
    Ms. Gowadia. I would prefer not to.
    Mr. King. Okay.
    Mr. McAllister, if you could just take me through--for 
instance, you quoted, and I think rightly so, that hometown 
security is homeland security and homeland security is hometown 
security, probably more so than ever now that it looks as if 
most of the attacks are going to be launched from within the 
country rather than a large attack from overseas. I know you 
said that information is shared and that people have 
clearances, but since so much of that information would be 
classified, at what stage do you share it with local partners?
    For instance, if you heard that X city--there is a 
potential nuclear threat, a dirty bomb against X city, what 
would be the procedure you would follow as far as when you 
would notify officials in that city? What level would they be 
at? Would it be police level? Would it be the mayor, or--and 
again, at what stage do you make that decisions?
    Mr. McAllister. Certainly, and thank you for asking that, 
Chairman.
    First of all, what we strive for is getting security 
clearances out to our key stakeholders within the State and 
local environment. We have over 4,000 Secret-level or above 
security clearances distributed to our partners out in the 
State and local arena.
    If there was an emerging threat what we would do is we 
would work to take that classified information and drill it 
down to the lowest classification level in order to get it out 
to the widest distribution possible. We have installed, through 
our National Network of Fusion Centers, the capability to 
communicate in a Secret/Classified level as well as, you know, 
our Governors, our major city mayors, our fusion center 
directors, and other key stakeholders have that level of 
security clearance.
    So we are able to communicate with them in a Classified 
environment, as well as, we would work with the FBI in order to 
develop a joint intelligence bulletin that could go out at a 
FOUO level or a Classified level, depending upon the nature of 
the threat. We would, again, work with them in order to 
distribute that through the existing information architecture 
to make sure that those State and local key stakeholders have 
informed decisions in order to make educated decisions on how 
to mitigate that threat in their community.
    Mr. King. Who would make that decision in the Department as 
to when that tipping point comes where the local officials, you 
know, should be notified?
    Mr. McAllister. That is ingrained in the way we operate on 
a daily basis.
    Mr. King. Okay. So there wouldn't be a question of the 
obligation being made later on that information was held back 
or wasn't sufficiently shared.
    Do you feel that the information-sharing process is 
adequate right now?
    Mr. McAllister. I look at my philosophy as well as my 
colleagues' is that we have an obligation to provide rather 
than a need-to-know environment. We strive to make sure that we 
get information that could impact a community out to the right 
folks out in the field.
    Mr. King. So, Dr. Gowadia, to change topics a little bit, 
but it definitely involves nuclear detection, I know that DNDO 
is reviewing a number of technologies for cargo scanning--and 
this is an issue that is often brought up at this committee--
including the multimode passive detection system. What is the 
status of those R&D projects?
    Ms. Gowadia. I believe you are referring to our nuclear, 
radiological imaging platform----
    Mr. King. Yes.
    Ms. Gowadia [continuing]. Technology, sir. The ATD, or the 
advanced technology demonstration, kicked off last year and I 
do believe we will be seeing characterization results, which is 
testing results, in the next fiscal year.
    Mr. King. Thank you.
    Commissioner Daddario, I know there is, I guess, no 
definite way of answering the question, but what would have 
been the impact in Boston if that had been a dirty bomb as 
opposed to a conventional explosive? Also, how would, whether 
it is New York or other cities in--you have the expertise in 
New York--how would the city have responded to that?
    Mr. Daddario. Just starting with New York, whenever we have 
a suspicious package and we have a bomb team that goes out they 
always have--they have radiation detection equipment with them 
so that when they approach a bomb the assumption is that it 
could be a dirty bomb, so that is one of the first things we 
do.
    Let's say a dirty bomb were to go off in Boston, depending 
on the--how much material there was, there would be a large 
area that would be contaminated for a substantial period of 
time. Depending on where it was, in this case in the center of 
an important area of Boston, that would shut down the 
economic--all economic activity in that area, chase residents 
out of the area for substantial periods of time until there 
could be a clean-up.
    There would be mass panic. People would be very reluctant 
to go anywhere near that area, which would mean that the ripple 
effect would extend far beyond the actual contamination zone. 
So I think the effect would have been, to a substantial extent, 
the shutting down of economic life in the city of Boston.
    That is the concern we have, quite frankly, in the city of 
New York. If a dirty bomb were to go off in the middle of the 
city what would that mean for the future of the city? Could the 
city continue to operate?
    So that is why these types of investments, we think, are so 
important. Obviously, you know, when I talk to you about it my 
concern is the city of New York. I can understand communities 
around the country--other cities--saying, ``Well, what about 
us?'' The reason for that is they understand that if something 
like this were to happen it could mean the death knell, really, 
for a major urban area.
    Mr. King. Without giving out too much information in a 
public setting, but all of us were extremely impressed by the 
tremendous medical response in Boston--the victims brought to 
the hospitals, the treatment they got. I mean, the--no one died 
once they were taken to the hospital--emergency care.
    But if it was a dirty bomb with nuclear materials, are 
hospitals equipped to bring contaminated victims in? What would 
that do to other patients in the hospital or other facilities? 
Again, I don't want you to give up too much--I mean, that is a 
whole new dimension on this.
    Mr. Daddario. It would create enormous challenges for the 
public--for the hospitals and public health system--how to 
treat the victims, whether there are enough types of 
medications available that would be effective in the 
stockpiles. It is certainly something we don't want to see, Mr. 
Chairman.
    Mr. King. Thank you, Commissioner.
    Now I recognize the Ranking Member.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just on this issue of the terror plot that was thwarted in 
Canada. Seemingly the introduction of an al-Qaeda presence in 
Iran to me is, you know, both disturbing and intriguing from 
the standpoint that Iran is a majority Shia population and al-
Qaeda is Sunni-based. They also have an intolerance of those 
non-Sunni Islamists.
    So I am just curious as to the thoughts of our panel about 
what seemingly is new information and what that does or doesn't 
do relative to a further threat to the United States, North 
America.
    Mr. Daddario. The subject you are raising is an awful lot 
of information that I am not at liberty to talk about, but I 
think in the public record it is pretty clear that al-Qaeda--
senior al-Qaeda people have been in Iran for some period of 
time. It has been convenient for Iran to have them there and it 
is convenient for al-Qaeda to be there.
    Iran is a, if nothing else, it is a passage, it is a point 
through which people travel to go from the Afghanistan and 
Pakistan area into the Middle East. So yes, there is tension 
for the reasons you have said, but there are also some common--
they have some common objectives, the United States being a 
common enemy in their eyes.
    So I think what you are seeing in--with Syria, maybe there 
is some more tension that is there. You know the case of Abu 
Ghaith, who recently left Iran, so that may be some indication 
of those tensions.
    But it is not new news that al-Qaeda has had a presence in 
Iran. How hospitable that hosting had been and how consistently 
hospitable it has been is something which is worth thinking 
about but the presence of al-Qaeda in Iran continues to this 
day.
    I think that is about all I can really say.
    Ms. Gowadia. I will focus my comments predominantly on the 
nuclear element. Precisely because we worry about the 
proliferation, as Chairman King mentioned in his opening 
statement, we work very hard, sir, to build a layered 
architecture that takes into account all kinds of terrorist 
threats.
    So it is our fundamental responsibility to build robust 
nuclear detection systems, and also, DNDO is responsible for 
nuclear technical forensics capabilities for the Nation, and we 
build them robust enough to deal with a wide variety of 
threats. It is agnostic to the country or the terrorist 
organization of concern.
    Mr. McAllister. From my perch two things come to mind. One 
is, right now that is still an active investigation with the 
Federal Bureau of Investigation. I know Director Mueller was on 
the Hill the other day and asked about that and, you know, in 
an open setting couldn't comment on that.
    We are working with the FBI on a joint intelligence 
bulletin pertaining to the Canadian incident that will be 
distributed today. It is a Classified level, but I am sure that 
we will make that available to the committee.
    Thank you.
    Mr. Cole. Well, I would just speak to the general necessity 
all the more that we be concerned that Iran not be permitted to 
even get close to a final development of a nuclear weapon, with 
all of the obvious implications that that would have, including 
possibly, then, making such a weapon more accessible or 
knowledge about it more accessible to al-Qaeda and other groups 
on collaboration with Iran, perhaps.
    Mr. Higgins. I yield back, Mr. Chairman.
    Mr. King. Ranking Member yields back.
    Now the gentleman from Massachusetts. Again, I join with 
the others in expressing our thoughts, prayers, and condolences 
to you and our gratitude for the people of Massachusetts who 
were the responders.
    Gentleman from Massachusetts is recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Ranking Member.
    Thank you for your remarks, all of you on our panel.
    In Boston there is a situation where the operations of the 
attack were conducted by two people that were domestic--at 
least had lived here--one a citizen, one a noncitizen, but had 
lived in the Commonwealth for a period of time, lived in the 
United States for a period of time. Some of the planning, at 
least, was done by these two individuals, and the procurement 
of some of the materials used in that explosive--that was also 
at least done by some measure by those two individuals. There 
might have been more, but at least some of it.
    My question is this: In that instance there was easily 
accessible materials and there was enough knowledge to put an 
explosive together. What type of biological, chemical, 
radiological materials are accessible by average folks to put 
together this kind of attack that we are having the testimony 
on today?
    I know Dr. Cole mentioned concerns about security around 
certain laboratories, and certainly that is an area, but could 
you comment on that, since I think those kind of attacks are 
going to become more prevalent, they are harder to detect, and 
I just want to see in the instances of biological, 
radiological, chemical attacks--nuclear attacks, as well--what 
can they get their hands on and what can people be reasonably 
expected to do to put together an attack using these materials?
    Dr. Cole.
    Mr. Cole. Well, I think it is important to differentiate 
between the nature and character of each of these weapons, the 
CBRN. In the case of biological it is a rather unique weapons 
system if natural--naturally occurring pathogens are used for 
hostile purposes. Yes, security is important, and there is not 
a standardization, as I mentioned, for laboratory work.
    There are various countermeasures that we have in place, 
including detection systems, which sometimes are not as 
effective and accurate as we wish, but nevertheless, we have 
moved in this direction in terms of biological materials, if 
they are--certainly if they are in the environment, if they 
floated and they ought not to be there. If appropriately 
engaged in advance, there are defenses against them from 
antibiotics and vaccines and other kinds of countermeasures.
    Radiological is entirely different. It is not contagious. I 
know Chairman King mentioned the possibility of bringing 
somebody to a hospital who has been exposed to radiation. That 
would not be dangerous to others nearby. However, depending on 
the intensity and the level of radiation that a person has been 
exposed to, this could be critical to that person's life.
    Mr. Keating. Well, if I could interrupt?
    Mr. Cole. Sure. Sure.
    Mr. Keating. Can they get their hands on our--I will be 
very clear: Can they get their hands on these things and use 
them in an attack? How accessible is that for people like these 
domestic or homegrown terrorists?
    Mr. Cole. In the case of biological, which is my particular 
expertise, it is not at all difficult to get--for anybody with 
a will and a little understanding of how you can get these 
materials, including from natural-occurring locations--anthrax, 
plague bacteria--these occur in nature. If you get a highly 
dangerous strain, and with a little knowledge about laboratory 
techniques, it would not be difficult to create a biological 
spread that could be harmful to a lot of people.
    I think that would be much less so for certain other kinds 
of agents. I will let others speak to radiological. But you 
know, if you talk not about a nuclear blast but scaring a lot 
of people with the release of some levels of radiation, there 
are radiation capabilities from machines in medical offices, 
dental offices, hospitals. That alone, among other commercial 
uses for--with radiation, makes those--that concern real.
    Mr. Keating. Dr. Gowadia, you wanted to comment.
    Ms. Gowadia. Yes. First and foremost, our special nuclear 
material in this country is secure. So the nuclear element, I 
think, we can rest assured on.
    Dr. Cole is right, there are radiological sources in 
hospitals, et cetera. But again, New York is a great example 
where we actually collaborated with the NRC--Department of 
Energy, and the Nuclear Regulatory Commission to harden these 
sources. Blood irradiators do have large radiation sources, but 
we are working to secure them, harden them so it gets harder 
and harder for them to acquire these materials.
    Mr. Keating. So we are at risk, clearly, on that with these 
same group of terrorists working within our borders?
    Ms. Gowadia. Yes, we are. But we continue to work as hard 
as possible to make the radiological materials hard to acquire 
and use as the first line of defense.
    Mr. Keating. Thank you, Mr. Chairman.
    If anyone else could comment on that if they wanted to? No?
    Then I yield back, Mr. Chairman. Thank you.
    Mr. King. Thank you.
    Now I recognize former Member of the committee and 
permanent visitor to the committee, gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman. You are always very 
gracious to allow me to have this opportunity and I especially 
thank you and the Ranking Member.
    Mr. King. I was hoping that with the change of chairmen 
maybe we wouldn't have----
    [Laughter.]
    Mr. King. But since the new Chairman is also from Texas I 
guess you are here forever, so----
    Mr. Green. He and I are great friends. Thank you so much.
    Mr. Keating, I do express my sympathies for the victims and 
my condolences, as well.
    To the members of the panel, thank you for your very 
thoughtful testimony. I must tell you that I was somewhat 
impressed, to be quite candid with you, with the way the effort 
was coordinated around what happened at the marathon. I am 
still impressed at how quickly things came together and how we 
were able to either capture or kill--and I don't like the 
terminology, but it speaks to what we are capable of doing--
within a very short period of time persons who committed a 
dastardly deed.
    So I would like for you, if you would, so that we can just 
get it in the record, some testimony about how successful that 
coordinated effort was. I am willing to start with Mr.--either 
person can start, quite candidly, to do this.
    Mr. Daddario. I think you are right, there was the initial 
response was very quick. A lot of resources came that were 
brought to Boston to assist in the investigation from--not just 
from the Federal Government but from local police agencies.
    There were, for example, from our department detectives 
from the Joint Terrorism Task Force who were in Boston. There 
were also other officers from other parts of the police 
department there. I don't think New York was alone in that 
regard.
    There was a, I think, after a little bit of--you know, 
whenever something like this happens it takes a little bit of 
time to put--to get everything organized, but I think a good 
sharing of information. The briefings were conducted well so 
that people were informed of what was going on. I think that 
was important.
    There is always, as you know, confusion when these type of 
things happen, and this is the case which is no different than 
others. But all in all, I think it was an excellent effort.
    It is still on-going, Congressman. This investigation is 
not completed. There is still a lot of work to be done.
    So the need to organize the way you have said, bring all 
the different actors and parties that have an interest in the 
case together and work together, continues to be very 
important.
    Mr. Green. Would anyone else like to comment?
    Yes, Mr. McAllister.
    Mr. McAllister. Thank you, sir.
    In order to adequately address that I would like to go back 
about 10 years, and that is the decade leading up to this 
tragic event. Since 2002 the Department of Homeland Security, 
through State preparedness grants--Boston has received about 
$370 million in order to prepare for such a tragic event--in 
particular, training, equipment, and resources to detect 
improvised explosive device prevention, response, and recovery 
training and equipment.
    Last year funding was used in order to speed and improve 
the efficiency in responding to such an IED threat. Our FEMA 
has supported 12 exercises and training opportunities over the 
past several years, 8 of which over the past 3 years in areas 
such as biological attack, hazardous materials, and other types 
of mass attacks. There has been over 5,500 first responders in 
the Boston area that have been trained on mass casualty 
response training and the like.
    I would like to just also talk about the fusion centers. 
The Boston Regional Intelligence Center was there for the 
preparation of the special event as well as the--dealing with 
the incident, and then the post-incident investigation.
    They handled everything from video exploitation to look for 
the culprits responsible for that, geospatial imagery for--to 
assist the first-line commanders in what was going on on the 
ground. They handled all kinds of requests for information, 
suspicious activity reporting, seamless updates to those 
decision-makers not only in the impacted area but also at the 
State emergency response center.
    They worked seamlessly with the State fusion center, as 
well, and provided accurate and timely information on what was 
evolving to the National Network of Fusion Centers as well as 
our Federal partners. It really is a model of just a well-
performed, although tragic, event in how to share intelligence 
and information.
    Mr. Green. Thank you, Mr. Chairman. I know my time is up.
    So if others of you, if you would like to respond, if you 
would put something in the record, I will be honored to read 
it. Thank you.
    Thank you, Mr. Cole.
    Mr. King. Thank you.
    I just have one follow-up question to Mr. Daddario, and you 
may have touched on this. But taking New York, what are the 
trip wires as far as you being alerted if somebody is 
purchasing suspicious materials, whether radioactive or 
otherwise.
    Mr. Daddario. New York has an outreach to businesses that 
sell materials that could be used for an attack--chemicals, gun 
powder, certain types of components for bombs. So we do an 
outreach so that if somebody goes and buys these materials we 
hope that it will trigger a call in to a law enforcement 
agency.
    There is nothing that requires, under the law, these calls, 
but--so we have to do this type of outreach. For example, a 
year or so ago we started doing some outreach to companies that 
sell pyrotechnic materials on-line, and that apparently may 
have been what was used in this case, because we recognize that 
you can go on-line and buy fuses and pyrotechnic powder.
    If you put that, as you saw, in an enclosed container along 
with BBs and metal you can cause enormous harm from what is, 
you know, derogatorily called a crude bomb. These are not crude 
bombs; these are very effective small bombs.
    I think people, you know, shouldn't use the term, you know, 
``It is a crude device,'' or something of that nature. The fact 
is that you can now go out and acquire unregulated materials 
and buy--to make bombs--that are very, very effective.
    That is obviously a concern to us--disturbing to us. So you 
have to create this--do this type of outreach to the companies, 
the businesses that sell this so that if they see something 
suspicious--somebody coming in and buying more than they need 
or coming back over and over again--that there is a call made 
out to law enforcement, and that is what we try to do.
    Mr. King. Also, my understanding is that also applies to 
seemingly innocuous items, such as beauty products.
    Mr. Daddario. Yes. I mean, beauty--those are chemicals, and 
those chemicals can be mixed together to, you know, to form--to 
make bombs or poisonous gases.
    Mr. King. Thank you.
    I have no further questions.
    Any Members of the panel have any--gentleman from 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I just was going to touch base with Mr. Daddario. In New 
York it is well-known that surveillance cameras are--have the 
most highest concentration probably in our country. That might 
be correct. But one of the issues that is really taking hold 
and being considered going forward is to what extent, in a city 
like Boston, where we, you know, had quite a few and that was 
really integral to investigators' success in going forward, 
what do you really advise, given your experience in New York 
City, on the need in other cities for increased surveillance 
equipment?
    Mr. Daddario. We have a program within the Counterterrorism 
Bureau to deploy cameras. We do it a little differently than 
some other cities. Other cities may have put out more cameras 
than we have, but our program is based on the following kind of 
design: We try to pull in--we use cameras that the police 
department installs, other public authorities install, and 
private businesses install.
    What we do is we bring those into our network--we bring all 
the video data into a central core that allows us to store it, 
review it for back--we go back 30 days. We can do analytics on 
all that information. So that, to us, is a very effective way 
of handling video information.
    Cameras themselves--the police department believes very 
strongly in. One, we think they have a deterrent effect, 
provide for security not just for a counterterrorism 
perspective but for general law enforcement, and as an 
investigative tool after an event takes place they are 
invaluable, and you saw that in Boston. If you wouldn't have 
had those cameras, you know, you would--right now we would be 
in a much different position--situation than we are now.
    So I think any city, as part of its security plan, should 
really give a close, hard look at how it can best deploy 
cameras--what type, where, how to architect them. I think that 
is an essential part of any security policy and program.
    Mr. Keating. Yes. The digital cameras I saw at the airport 
in Boston--Lincoln Laboratories MIT----
    Mr. Daddario. I am familiar with----
    Mr. Keating. It is extraordinary. They can see the entire 
terminal all at once live time, and experts can look at any 
activity that is not done, and this computerized side of that, 
as well, as I understand, and they can see a blade of grass 
with high definition three football fields away. I mean, so the 
technological developments are another aspect of this 
surveillance, as well.
    Mr. Daddario. Congressman, if you ever want to come to New 
York and look at our system--it is called the Domain Awareness 
System--let us know, be happy to show it to you.
    Mr. Keating. Great. Thank you.
    Thank you. I yield back, Mr. Chairman.
    Mr. King. Thank you.
    I would just follow up on what the commissioner said. I am 
not in a position to invite people to the NYPD, but it really 
works--especially, you know, if Boston is considering it, it is 
very impressive to look at and there is even more than the 
commissioner has described.
    I mean, it is--Commissioner Kelly would have shown, there 
is some guy wearing a green sweater on 11th Street. You can 
pick out almost anything on that. It is amazing how it is done, 
and very sophisticated, and you have so many partners working 
in there from both the police department and the private sector 
at this location I have, so.
    Gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman. I promise to be terse 
and laconic.
    I would like for you to respond as a follow-up to 
Representative Keating's question with reference to the 
citizenry, ``See something, say something,'' in terms of 
cameras that--in the hands of citizens and the social 
networking that took place with this technology--the impact 
that that has, please?
    Mr. Daddario. Congressman, are you referring to how people 
can take pictures on their cell phones now and----
    Mr. Green. Yes, sir.
    Mr. Daddario [continuing]. And send it in?
    This is a very interesting development, and I think police 
departments, law enforcement officers are trying to get a 
handle on how to deal with that. It is a lot of information now 
that can be sent to police departments.
    The problem is you don't have a way to communicate with the 
person who sends it to you right away, so you are not sure what 
it is, you--so lacking that dialogue or that conversation, it 
makes it harder to figure out how to respond. But it is 
absolutely something which all law enforcement agencies and 
public safety agencies have to start to think about, is how can 
it encourage this information be brought in and what--how to 
handle it effectively once it comes in the door.
    I will tell you, we haven't exactly fully come to terms 
with that. It is something that the New York City Police 
Department, other police departments, have to give real thought 
to.
    Mr. Green. Mr. Chairman, just as a follow-up, should there 
be a pilot program? Would you be interested in some sort of 
methodology by which you can pull forward to develop these 
ideas?
    Mr. Daddario. Well, we are thinking about it but we are 
always interested in getting help.
    Mr. King. The gentleman yields back.
    I want to thank all the witnesses for their testimony.
    Oh, Dr. Cole.
    Mr. Cole. If I may?
    Mr. King. Surely.
    Mr. Cole. I think protection of the citizenry stands on two 
major pillars. One has largely been discussed: How you prevent, 
how you detect in advance and you protect the public by not 
having an event.
    The other equally important pillar is, in the unfortunate 
occasion that the attack happens, what about the response? On 
this I would like to make one very important point. Through 
media reports, through general discussion is--there is a full 
appreciation and acknowledgement that the medical response and 
rescue response was superb at the Boston Marathon, but it is 
extremely important to recognize how atypical that situation 
was relative to other possibilities in the United States.
    For example, at the New York Marathon there are more than 
1,000 medical volunteers stationed across the route heavily 
concentrated near the finish line. I don't know the number of 
medical volunteers at Boston, but there were many, many 
available literally within seconds of the time of the blast.
    There would have been many more lives lost simply through 
the loss of those legs that were blasted away, or arms in some 
cases. With nearby, medically-trained people--EMS people, 
physicians, nurses--the bleeding was staunched. That is one of 
the reasons that there was an unusually successful manner in 
terms of saving lives.
    Beyond that, as you well know, Congressman Keating, some of 
the most outstanding medical institutions in the world were 
literally one or one-and-a-half miles away--Harvard's series of 
medical schools, Tufts, Boston University. This is not what we 
can expect, God forbid, if there were another occasion where 
there was a blasting of people where you have medical folks at 
hand within moments and just a couple of minutes away getting 
to the hospitals.
    We need better preparation, preparedness, and public health 
capabilities throughout the country at many locations beyond a 
marathon that would draw such a focus of intent including, by 
the way, not just for medical but the security people. There 
were huge numbers of security police, other officials that 
would not necessarily be populating locations throughout the 
country in equal numbers.
    Mr. King. Thank you, Dr. Cole.
    I want to thank all the witnesses for their testimony and 
Members for their questions. I think all of us are on the same 
page coming from different perspectives, but in dealing with 
the issue I think there is a real unanimity as to steps that 
should be taken and what is being done.
    I want to especially thank the Department for their work, 
thank Commissioner Daddario, thank Dr. Cole for coming back 
again and for his insights.
    I would just say, the Members of the committee may have 
some additional questions for you and we will ask you to 
respond to those in writing if they come in.
    So without objection, the committee stands adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
